<html>
<title> - WEATHERING THE STORM: IMPROVING HURRICANE RESILIENCY THROUGH RESEARCH</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



 
                          WEATHERING THE STORM:
                     IMPROVING HURRICANE RESILIENCY
                            THROUGH RESEARCH

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON ENVIRONMENT

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 22, 2019

                               __________

                           Serial No. 116-26

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 
 
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
 


       Available via the World Wide Web: http://science.house.gov
       
       
       
       
                            ______
                          

              U.S. GOVERNMENT PUBLISHING OFFICE 
 36-506PDF               WASHINGTON : 2020
 
        
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             HON. EDDIE BERNICE JOHNSON, Texas, Chairwoman
ZOE LOFGREN, California              FRANK D. LUCAS, Oklahoma, 
DANIEL LIPINSKI, Illinois                Ranking Member
SUZANNE BONAMICI, Oregon             MO BROOKS, Alabama
AMI BERA, California,                BILL POSEY, Florida
    Vice Chair                       RANDY WEBER, Texas
CONOR LAMB, Pennsylvania             BRIAN BABIN, Texas
LIZZIE FLETCHER, Texas               ANDY BIGGS, Arizona
HALEY STEVENS, Michigan              ROGER MARSHALL, Kansas
KENDRA HORN, Oklahoma                RALPH NORMAN, South Carolina
MIKIE SHERRILL, New Jersey           MICHAEL CLOUD, Texas
BRAD SHERMAN, California             TROY BALDERSON, Ohio
STEVE COHEN, Tennessee               PETE OLSON, Texas
JERRY McNERNEY, California           ANTHONY GONZALEZ, Ohio
ED PERLMUTTER, Colorado              MICHAEL WALTZ, Florida
PAUL TONKO, New York                 JIM BAIRD, Indiana
BILL FOSTER, Illinois                JAIME HERRERA BEUTLER, Washington
DON BEYER, Virginia                  JENNIFFER GONZALEZ-COLON, Puerto 
CHARLIE CRIST, Florida                   Rico
SEAN CASTEN, Illinois                VACANCY
KATIE HILL, California
BEN McADAMS, Utah
JENNIFER WEXTON, Virginia
                                 ------                                

                      Subcommittee on Environment

                HON. LIZZIE FLETCHER, Texas, Chairwoman
SUZANNE BONAMICI, Oregon             ROGER MARSHALL, Kansas, Ranking 
CONOR LAMB, Pennsylvania                 Member
PAUL TONKO, New York                 BRIAN BABIN, Texas
CHARLIE CRIST, Florida               ANTHONY GONZALEZ, Ohio
SEAN CASTEN, Illinois                JIM BAIRD, Indiana
BEN McADAMS, Utah                    JENNIFFER GONZALEZ-COLON, Puerto 
DON BEYER, Virginia                      Rico


                         C  O  N  T  E  N  T  S

                             July 22, 2019

                                                                   Page
Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Lizzie Fletcher, Chairwoman, 
  Subcommittee on Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     8
    Written Statement............................................     9

Statement by Representative Brian Babin, Subcommittee on 
  Environment, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................    10
    Written Statement............................................    11

Written statement by Representative Eddie Bernice Johnson, 
  Chairwoman, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................    12

                               Witnesses:

Dr. Louis W. Uccellini, Assistant Administrator for Weather 
  Services, National Oceanic and Atmospheric Administration; and 
  Director, National Weather Service
    Oral Statement...............................................    14
    Written Statement............................................    17

Dr. Hanadi Rifai, John and Rebecca Moores Professor, 
  Environmental Engineering Graduate Program; and Director, 
  Hurricane Resilience Research Institute, University of Houston
    Oral Statement...............................................    29
    Written Statement............................................    33

Ms. Emily Grover-Kopec, Director of Insurance Practice, One 
  Concern, Inc.
    Oral Statement...............................................    52
    Written Statement............................................    54

Mr. Jim Blackburn, Co-Director, Severe Storm Prediction, 
  Education and Evacuation from Disaster Center; and Professor, 
  Department of Civil and Environmental Engineering, Rice 
  University
    Oral Statement...............................................    62
    Written Statement............................................    64

Discussion.......................................................    85

             Appendix I: Additional Material for the Record

Letter submitted by Representative Lizzie Fletcher, Chairwoman, 
  Subcommittee on Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................   108


                         WEATHERING THE STORM:

                     IMPROVING HURRICANE RESILIENCY

                            THROUGH RESEARCH

                              ----------                              


                         MONDAY, JULY 22, 2019

                  House of Representatives,
                       Subcommittee on Environment,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to notice, at 3:14 p.m., at 
Houston Community College, West Loop Campus Auditorium, 5601 
West Loop South, Houston, Texas 77081, Hon. Lizzie Fletcher 
[Chairwoman of the Subcommittee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairwoman Fletcher. This hearing will come to order. 
Without objection, the Chair is authorized to declare recess at 
any time.
    The Chair would like to request unanimous consent for Ms. 
Garcia and Ms. Jackson Lee to participate in today's hearing. 
Without objection.
    Good afternoon, and welcome to today's hearing entitled, 
``Weathering the Storm: Improving Hurricane Resiliency through 
Research.'' This hearing will follow the format that is 
standard for the Committee's Science, Space, and Technology 
hearings on Capitol Hill. First, I will give a 5-minute 
statement on the topic of the hearing. Then Dr. Babin, the 
senior-most minority Member on the Environment Subcommittee in 
attendance here today, will have 5 minutes to give an opening 
statement. After that, we will hear 5 minutes of oral testimony 
from each of our expert witnesses. Then, starting with myself, 
each Member will have 5 minutes to question the panel. We will 
alternate back and forth between Democratic and Republican 
Committee Members. If there is time, we will hold a second 
round of questions.
    Thank you for joining us at today's Subcommittee on 
Environment field hearing. I would like to welcome our panel of 
witnesses that includes two fellow Houstonians, Dr. Rifai and 
Mr. Blackburn.
    I'm glad we're able to hold this hearing in Houston today, 
and I'm so pleased to welcome our witnesses and my colleagues 
here in Houston. I thank Chairwoman Johnson, who will be 
joining us shortly, for making this field hearing possible.
    Here in Houston, we know the devastating effects that 
hurricanes can bring, and we know the importance of preparing. 
As a young girl, I was just a few blocks from where we're 
sitting today in the house I grew up in when Hurricane Alicia 
came through Houston and the eye of the storm passing right 
over our heads.
    In the years since, we have seen many storms here and 
across the Gulf Coast. We know them by name: Rita, Ike, Harvey. 
In fact, Texas is particularly vulnerable to hurricanes. The 
Texas General Land Office has found that in the last 14 years 
every coastal county in Texas has received at least one 
hurricane disaster declaration.
    In 2017, Hurricane Harvey rewrote the continental U.S. 
record for rainfall from a tropical cyclone. It was the second-
costliest hurricane in United States history behind only 
Hurricane Katrina. At least 68 people died, as we know all too 
well in this community, from the direct effects of the storm, 
and it left an estimated $125 billion worth of damage in its 
wake. We are still recovering.
    We have watched in recent days as Hurricane Barry made its 
way to the coast, predicted to dump 1 to 2 feet of rainwater 
across Louisiana with storm surges along the Mississippi River. 
Fortunately, the effects were not as severe as expected, but we 
know that will not always be the case.
    The science is clear: Hurricanes are becoming more frequent 
and more intense. That means more storms like Harvey. And with 
that knowledge it's time to expand the conversation beyond just 
improving weather forecasts so that communities can prepare for 
and recover from severe storms.
    The National Oceanic and Atmospheric Administration, or 
NOAA, defines coastal resilience as, quote, ``building the 
ability of a community to bounce back after hazardous events 
such as hurricanes, coastal storms, and flooding rather than 
simply reacting to impacts.'' I know that my constituents and 
Americans across the country want the Federal Government to do 
more than simply react to storms.
    Investing in research can facilitate the development of 
evidence-based policies that address how our environment is 
changing and how this change will affect society. We need not 
only a better understanding of the conditions that generate 
hurricanes but also an understanding of how to adapt our 
natural and manmade structures to better withstand more 
frequent and intense tropical storms.
    Today's advancements in hurricane forecasting would not be 
possible without Federal investments at agencies like NOAA. The 
National Hurricane Center, part of NOAA's National Weather 
Service (NWS), works closely with research partners and with 
the broader research community to develop products and services 
that ultimately lead to more accurate forecasts. Given the 
success of these Federal investments in improving hurricane 
research and forecasting, it is now time we expand our focus to 
building coastal resilience to hurricanes we have gotten much 
better at predicting.
    While hurricane forecasts have improved tremendously, we 
still need to continue to improve our forecasts and to better 
understand what to expect during hurricane season in both the 
short and long term. Hurricane forecasts help us understand the 
new normal we are facing, informing research needed to develop 
resilience to increasingly extreme hurricanes. This means broad 
investments into interdisciplinary research that can address 
tough problems. That is why we are here today.
    I look forward to hearing from our expert panel how the 
Science, Space, and Technology Committee can best support 
interdisciplinary research needed to help coastal communities 
like Houston build resilience to hurricanes.
    [The prepared statement of Chairwoman Fletcher follows:]

    Good afternoon, and welcome to the Subcommittee on 
Environment's field hearing on hurricane and coastal resilience 
research.
    I am glad we are able to hold this hearing in Houston 
today, and I am pleased to welcome our witnesses, including two 
Houstonians, Dr. Rifai and Mr. Blackburn, and my colleagues. I 
thank Chairwoman Johnson for making this field hearing 
possible.
    Here in Houston, we know the devastation hurricanes can 
bring-and we know the importance of preparing. As a young girl, 
I was just a few blocks from where we sit today, in the house I 
grew up in, when Hurricane Alicia came through Houston-the eye 
of the storm passing right overhead. And in the years since, we 
have seen many storms, here and across the Gulf Coast. We know 
them by them by name: Rita. Ike. Harvey.
    In fact, Texas is particularly vulnerable. The Texas 
General Land Office has found that in the last fourteen years, 
every coastal county in Texas received at least one hurricane 
disaster declaration. In 2017, Hurricane Harvey rewrote the 
continental U.S. record for total rainfall from a tropical 
cyclone. It was the second-costliest hurricane in U.S. history, 
behind only Hurricane Katrina. At least 68 people died from the 
direct effects of the storm, and it left an estimated $125 
billion of damage in its wake. We are still recovering.
    We have watched in recent days as Hurricane Barry made its 
way to the coast, predicted to dump one to two feet of 
rainwater across Louisiana, with storm surges along the 
Mississippi River. Fortunately, the effects were not as severe 
as expected. But we know that will not always will be the case.
    The science is clear: Hurricanes are becoming more frequent 
and more intense. That means more storms like Harvey. And with 
that knowledge, it is time to expand the conversation beyond 
just improving weather forecasts, so that communities can 
prepare for and recover from severe storms.
    The National Oceanic and Atmospheric Administration, or 
NOAA, defines coastal resilience as ``building the ability of a 
community to `bounce back' after hazardous events such as 
hurricanes, coastal storms, and flooding - rather than simply 
reacting to impacts.'' I know that my constituents, and 
Americans across the country, want the federal government to do 
more than simply react to hurricane impacts.
    Investing in research can facilitate the development of 
evidence-based policies that address how our environment is 
changing and how this change will affect society. We need not 
only a better understanding of the conditions that generate 
hurricanes, but also an understanding of how to adapt our 
natural and man-made structures to better withstand more 
frequent and intense tropical storms.
    Today's advancements in hurricane forecasting would not be 
possible without federal investments at agencies like NOAA. The 
National Hurricane Center, part of NOAA's National Weather 
Service, works closely with research partners within the 
Agency, such as the Office of Oceanic and Atmospheric Research, 
and with the broader research community, to develop products 
and services that ultimately lead to more accurate forecasts. 
Given the success of these federal investments in improving 
hurricane research and forecasting, it is now time we expand 
our focus to building coastal resilience to the hurricanes we 
have gotten much better at predicting.
    While hurricane forecasts have improved tremendously, we 
still need to continue to improve our hurricane forecasts, and 
to better understand what to expect during hurricane season in 
both the short- and long-term. Hurricane forecasts help us 
understand the new normal we are facing, informing research 
needed to develop resilience to increasingly extreme 
hurricanes. This means broad investments into interdisciplinary 
research that can address tough problems. That is why we are 
here today.
    I look forward to hearing from our expert panel how the 
Science, Space, and Technology Committee can best support 
interdisciplinary research needed to help coastal communities 
like Houston build resilience to hurricanes.

    Chairwoman Fletcher. Before I recognize Dr. Babin, I would 
also like to enter into the record a letter from Marie Lynn 
Miranda, Director of the Children's Environmental Health 
Initiative at Rice University, on behalf of the Hurricane 
Harvey Registry. The registry is an ongoing research effort at 
Rice that collects health, location, and exposure information 
for people along the Texas Gulf Coast. I commend the 
researchers at Rice for seeing a need to systematically track 
and identify short- and long-term health and housing impacts of 
this horrific storm on our community. This information can be 
used for ongoing efforts, as well as for future disaster 
response efforts. Without objection, so ordered.
    I will now recognize Dr. Babin for an opening statement.
    Mr. Babin. Thank you. Thank you, Madam Chair. I really 
appreciate you having this hearing. I want to welcome our panel 
of experts, looking forward to hearing what you have to say, 
and also for those who came to hear what we have to say.
    As a lifelong resident of southeast Texas, a witness to 
many storms over the years. The very first one I remember was 
Hurricane Audrey in 1957, which had about 400 casualties in 
Louisiana, just over the line from where we lived in Beaumont. 
So this could not be a more fitting place and fitting location.
    And less than 2 years ago, Hurricane Harvey made landfall 
in Texas and left a staggering amount of damage in its wake. As 
has already been said, it's second only to Katrina. Eighty-
eight lives were lost. The National Hurricane Center estimated 
that more than $125 billion in damages occurred due to the 
hurricane and subsequent flooding. Nearly 40,000 people were 
forced out of their homes and into shelters. Over 200,000 homes 
were damaged, many outside the 100-year floodplain.
    I can continue citing statistics, but the point remains 
that Harvey was absolutely a devastating event for the 
residents of my district and surrounding communities. I 
represent nine counties basically from Houston over to 
Louisiana, and all nine counties were federally declared 
disasters.
    If we need a reminder of the impacts of severe weather, 
Hurricane Barry struck Louisiana just last week, dropping 15 
inches of rain in a period of hours. And though the Atlantic 
hurricane season began on June the 1st, we saw last year that 
many of the most devastating hurricanes did not make landfall 
until August or September.
    Earlier today, this Committee had the opportunity to tour 
the National Weather Service office near Galveston, which was 
on the very frontline of Harvey, and were able to hear 
firsthand about the innovative forecasting techniques utilized 
to determine the paths of hurricanes.
    This Committee has played a critical role in the 
development of weather forecasting, and I'm proud to serve on 
it. In April 2017, President Trump signed the Weather Research 
and Forecasting Innovation Act, legislation that was drafted by 
Ranking Member Frank Lucas from Oklahoma.
    It sounds like some weather out there right now, doesn't 
it?
    Among the provisions included was section 104, which 
directed NOAA to improve hurricane forecasting by improving the 
prediction of rapid intensification and the track of hurricanes 
to include the forecast and communication of storm surges from 
hurricanes to improve communication of these very grave 
threats. We will hear about NOAA's ongoing efforts to implement 
these provisions and what other steps this Committee can take 
to improve hurricane forecasting this Congress, the 116th.
    Knowing what will happen is only half of the battle. In 
addition to understanding the patterns of behavior of 
hurricanes, we will also hear today about how we can better 
allocate our research priorities in order for communities to be 
more resilient when a severe hurricane makes landfall.
    As many in this room have experienced in the last couple of 
years, we saw homes, businesses, roads, dams, even Federal 
Government facilities such as the Johnson Space Center, which I 
represent, were unprepared for the damaging effects of Harvey. 
Houstonians are strong, and they're resilient. And as we've 
seen in the recovery over the last 2 years, they are tough 
folks that live here. We have an obligation to ensure that the 
residents of Houston and other communities across the country 
can have greater certainty that they will know just how strong 
a hurricane will be and feel certain that they live in a 
resilient community.
    I want to thank our panel of witnesses today again for 
sharing your expertise with us. I'm very proud to be sitting up 
here with our Houston delegation members. And I would yield 
back, Madam Chair.
    [The prepared statement of Mr. Babin follows:]

    Thank you for holding this hearing, Chairwoman Fletcher.
    This hearing could not take place in a more fitting 
location. Less than two years ago, Hurricane Harvey made 
landfall in Texas. Harvey left a staggering amount of damage in 
its wake. Eighty-eight lives were lost. The National Hurricane 
Center estimated more than $125 billion in damages occurred due 
to the hurricane and subsequent flooding. Over 200,000 homes, 
many outside of the 100-year flood plain, were damaged, forcing 
nearly 40,000 people into temporary shelters. I could continue 
citing statistics, but the point remains that Harvey was a 
devastating event for the residents of my district and 
surrounding communities.
    If we need a reminder of the impacts of severe weather, 
Hurricane Barry struck Louisiana last week, dropping 15 inches 
of rain in a period of hours. Though the Atlantic Hurricane 
season began on June 1st, we saw last year that many of the 
most devastating hurricanes did not make landfall until August 
and September.
    Earlier today, members of this committee had the 
opportunity to tour the National Weather Service office near 
Galveston, which was one of the first cities to be devastated 
by Harvey. We had the opportunity to hear first hand about the 
innovative forecasting techniques utilized to determine the 
paths of hurricanes.
    This committee has played a critical role in the 
development of weather forecasting. In April 2017, President 
Trump signed into law the Weather Research and Forecasting 
Innovation Act- legislation drafted by Ranking Member Lucas. 
Among the provisions included was section 104, which directed 
NOAA to enhance hurricane forecasting by improving the 
prediction of rapid intensification and track of hurricanes, 
the forecast and communication of storm surges from hurricanes, 
and the communication of these threats. We will hear about 
NOAA's ongoing efforts to implement these provisions and what 
other steps this committee can take during this Congress to 
improve hurricane forecasting.
    Knowing what will happen is only half the battle. In 
addition to understanding the patterns of behavior of 
hurricanes, we will hear today about how we can better allocate 
our research priorities in order for communities to be more 
resilient when a severe hurricane makes landfall. As many in 
this room saw a couple of years ago, homes, businesses, roads, 
dams, and even federal government facilities, such as Johnson 
Space Center, were unprepared for the damaging effects of 
Harvey.
    Houstonians are strong and resilient, as we've seen in the 
recovery from Hurricane Harvey over the last two years. We have 
an obligation to ensure that the residents of Houston, along 
with other communities across the country, can have greater 
certainty that they will know how strong a hurricane will be, 
and feel confident that they live in resilient communities.
    I want to thank our panel of witnesses today for sharing 
their expertise with us. Thank you, Chairwoman Fletcher. I 
yield back.

    Chairwoman Fletcher. Thank you, Dr. Babin.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    [The prepared statement of Chairwoman Johnson follows:]

    Good afternoon and thank you, Chair Fletcher, for convening 
this important hearing on how we can improve hurricane 
resilience research. I am excited to hear how we can help 
coastal communities like Houston become more resilient to the 
increasingly frequent and intense storms we are already seeing.
    As Chair Fletcher mentioned, the Texas coast is no stranger 
to hazardous weather. Hurricane damage is primarily caused by 
their high winds, heavy precipitation, and storm surge. These 
hurricane impacts can be devastating, especially to the 
estimated six million Texans that NOAA has estimated live along 
our over 3,000 miles of shoreline. Storm surge, and the waves 
caused by hurricanes, are the largest potential threats to life 
and property in coastal areas. Texan cities like Houston are on 
the forefront of dealing with these impacts, along with inland 
flooding caused by heavy precipitation, as we saw with Harvey.
    Hurricane forecasts have improved tremendously in recent 
years. Many of the operational forecasting products developed 
by the National Hurricane center within NOAA's National Weather 
Service can be attributed to federally funded research. The 
Weather Service's partnerships with hurricane research 
programs, both within NOAA and extramurally, have played a huge 
role in improving the accuracy of hurricane models and 
forecasts.
    I look forward to hearing from Dr. Uccellini, about the 
successes of the National Hurricane Center, and future 
opportunities for Congress to support initiatives within NOAA 
that can continue to improve hurricane forecasts.
    Along with many of my fellow colleagues from Texas here 
today, I serve on the Transportation and Infrastructure 
Committee. It is becoming clear that the way our current 
infrastructure was designed decades ago, cannot withstand the 
coming impacts of a changing climate. Better understanding our 
future climate through improved weather forecasts and long-term 
climate predictions is critical to developing more resilient 
coastal infrastructure.
    Just as hurricane forecasts have improved due in part to 
federal research investments in weather forecasting and 
modeling, there is opportunity for Congress to bolster research 
into coastal resiliency solutions. Conversations like the one 
we are having today with federal agencies, academic 
researchers, and resilience-focused businesses, can provide 
recommendations that will inform decision-makers on how to move 
forward.
    I am glad we have two Houstonians on this panel who are 
actively collaborating across disciplines and institutions in 
the Houston area, and beyond, to leverage a wide-range of 
expertise. I can guarantee that there is no one more dedicated 
to developing innovative solutions for building coastal 
resilience than those who have seen the devastation these 
storms can cause first-hand. I hope today's discussion brings 
us one step closer to finding these solutions.
    Thank you, and I yield back the balance of my time.

    Chairwoman Fletcher. At this time, I would like to 
introduce our witnesses. Our first witness from NOAA, Dr. Louis 
Uccellini, serves as the Assistant Administrator for Weather 
Services, and the Director of the National Weather Service. 
Prior to this position, he served as the Director of the 
National Centers for Environmental Protection, NCEP, for 14 
years where he directed the operations at nine NCEP centers. 
Before that, Dr. Uccellini has been the Director of the 
National Weather Service's Office of Meteorology, Chief of the 
National Weather Service's Meteorological Operations Division, 
and section head for the Mesoscale Analysis and Modeling 
Section at the Goddard Space Flight Center's Laboratory for 
Atmospheres. Dr. Uccellini received his Ph.D., master's, and 
bachelor of science degrees in meteorology from the University 
of Wisconsin Madison.
    Our second witness, Dr. Hanadi Rifai, is the John and 
Rebecca Moores Professor, and Director of Hurricane Resilience 
Research Institute, or HuRRI, at the University of Houston. 
HuRRI is a national center uniting a coalition of coastal 
universities to promote U.S. coastal resiliency through 
research and educational programs. Dr. Rifai's research focuses 
on groundwater flow modeling, risk assessment, hydrology, 
hazardous waste, and urban stormwater quality. She authored 
three widely used computer models for the decomposition of 
organic matter by microorganisms. She also codirects the Severe 
Storm Prevention, Education, and Evaluation from Disaster, 
SSPEED, Center, with another of our panelists, Mr. Jim 
Blackburn. Dr. Rifai received both her Ph.D. and M.S. in 
environmental engineering from Rice University and received her 
B.S. in civil engineering from American University of Beirut in 
Beirut, Lebanon.
    Our third witness is Ms. Emily Grover-Kopec. She serves as 
the Director of Insurance Practice at One Concern and has more 
than 15 years of experience in catastrophe modeling and climate 
analytics primarily for use by the insurance industry. Prior to 
joining One Concern, Ms. Grover-Kopec spent 12 years at Risk 
Management Solutions as a vice president where she focused on 
analytics for the flood peril in the United States. Ms. Grover-
Kopec holds a B.S. degree in atmospheric, oceanic, and space 
sciences from the University of Michigan and an M.S. degree in 
meteorology from Penn State University.
    Our last witness, Mr. Jim Blackburn, is the Co-Director of 
the Severe Storm Prevention, Education, and Evacuation from 
Disaster, SSPEED, Center, at Rice University, where he's also a 
Professor in the Department of Civil and Environmental 
Engineering. In his work at the SSPEED Center, Mr. Blackburn 
uses simulations of hurricanes to improve the lead time for 
warnings of storm impacts and researches effective mitigation 
and coastal resiliency strategies for Houston that can be 
extrapolated to other communities. The SSPEED Center is 
recognized as the Gulf Coast's top university-based resource 
for research and education related to protection strategies for 
severe storm flooding and hurricane-related surge.
    Mr. Blackburn is also a practicing environmental lawyer 
with the Blackburn & Carter law firm in Houston and a Rice 
faculty scholar at the Baker Institute. Mr. Blackburn received 
a B.A. in history and a J.D. from the University of Texas at 
Austin, as well as an M.S. in environmental science from Rice 
University.
    We will begin with Dr. Uccellini.

              TESTIMONY OF DR. LOUIS W. UCCELLINI,

          ASSISTANT ADMINISTRATOR FOR WEATHER SERVICES,

                    NOAA; AND DIRECTOR, NWS

    Dr. Uccellini. Good afternoon, Chair Fletcher and Members 
of the Committee. I am Louis Uccellini, Director of NOAA's 
National Weather Service. It is my honor to testify before you 
today on the state of hurricane forecasting in the United 
States.
    Hurricane track forecast accuracy has improved tremendously 
over the past 2 decades. Storm track forecast errors have 
decreased every decade since records began, but we've 
accelerated that improvement since the mid-90s. And new records 
are set almost every year. Our 48-hour forecast improved from 
an era of over 300 miles in the 1960s to only 85 miles today. 
The 5-day forecast is better now than the 1-day forecast was in 
the 1960s. Our current experimental 7-day forecasts are as 
accurate as the day-3 forecasts were 25 years ago.
    More recently, intensity prediction has also improved by 
about 25 percent over the past 5 years. Improved forecasts have 
many contributing factors, including improved models and the 
experience and skill of our forecasters. There are three 
contributing components to improved America weather prediction: 
Increased supercomputing capacity; assimilating global 
observations of the atmosphere, oceans, and land; and, three, 
improving the increasingly complex models themselves.
    With respect to improving the models, the global forecast 
system model improvements--that's the American model--the 
introduction of ensemble forecasts, and the Hurricane Weather 
Research and Forecasting model all represent significant steps 
forward in our numerical prediction of hurricane structure, 
intensity, and track.
    The research and development for the Hurricane Weather 
Research and Forecasting model--and we refer to that as HWRF--
is a joint effort between NOAA and academic partners as part of 
the Hurricane Forecast Improvement Project. This advancement, 
which began under the U.S. Weather Research Program, highlights 
the importance of research and operational entities working 
together to more rapidly transfer promising research techniques 
into operations. These programs also accelerated the track 
forecast improvements that we've seen over the last 2 decades.
    The Weather Research and Forecasting Innovation Act that 
was noted earlier addresses NOAA's critical mission areas, 
including improvements to the Hurricane Forecast Improvement 
Program, spanning improved modeling, computing capacity, and 
working with the private and academic sectors to obtain the 
best possible data and to further research on hurricane 
behavior to improve the numerical weather prediction of--and 
especially to improve the numerical weather prediction of rapid 
intensification.
    As an example of the important role of our forecasters, the 
hurricane forecasters at the National Hurricane Center apply 
their experience and knowledge about hurricanes to computer 
models and other inputs to make forecasts that, on average, are 
more accurate than every individual computer model prediction. 
These improvements in NOAA's hurricane forecasts have helped 
emergency managers make better, timely, focused, and accurate 
community preparation and evacuation decisions and are 
responsible in part for the decreasing impacts that we see of 
these storms at landfall.
    Ninety percent of fatalities from tropical weather systems 
are due to water. These water fatalities are either from storm 
surge or from inland flooding. The impact from storm surge can 
reach up to 100 miles inland along major rivers and 
tributaries. To reduce the storm surge impacts, we now issue 
storm surge products--watches, warnings, and inundation maps--
for the public, for emergency managers, and for others. We 
believe these products have led to better decisions--are the 
main reasons for the recent reduction in the number of storm-
surge fatalities from major landfalling storms in 2017 and 
2018.
    Heavy rains from tropical systems can lead to extreme 
inland flooding, sometimes hundreds of miles inland and away 
from the center of the storm and days after the storm makes 
landfall. We have demonstrated increased skill with our 
precipitation forecasts, but that is not enough. For Hurricane 
Harvey, we predicted over 50 inches of rain and historic 
catastrophic flooding days before it occurred. While 
meteorologists knew the flooding would be catastrophic, we 
needed to map and communicate those impacts.
    Given the predicted magnitude of Harvey, we accelerated 
what we called the first use of our experimental flood 
inundation mapping information that was under development at 
the National Water Center. These maps identified areas that 
would flood and, just as importantly, areas that would remain 
dry for staging and for shelters. These inundation maps clearly 
improved our ability to communicate the potential flood impacts 
related to the historic 50-plus-inch rainfall amounts.
    Intensity forecasts have improved, especially in the 
extended time periods. Strengthening or weakening trends are 
often captured by the models, and recent improvement in the 
HWRF model showed great promises to predict rapid 
intensification and the extent of these trends. The goals of 
the Hurricane Forecast Improvement Program are to improve the 
track and intensity forecast accuracy by another 50 percent 
over the next 10 years, to extend high accuracy forecast from 5 
to 7 days in advance, and to further integrate social and 
behavioral sciences into new products.
    Through our newly provided impact-based decision support 
services authorized in the 2017 Weather Act, we are better 
connected than ever to decisions being made across the entire 
spectrum of emergency managers at the local, State, regional, 
and national levels, and to the public. Effective communication 
about storms provided through these new products, outreach, and 
education efforts to increase the attention on the individual 
impacts from wind and water hazards that could occur in each 
community and to focus on these winds, tornadoes, storm surge, 
inland flooding, and ocean waves and rip currents will all lead 
to lessen the impact of these storms.
    In conclusion, NOAA and the weather enterprise have made 
significant strides in the accuracy of hurricane forecasts, but 
we must continue to improve these forecasts, including a focus 
on the social and behavioral sciences to better understand 
people's reaction to the information.
    Thank you for this opportunity to appear before you today. 
I look forward to answering any questions you may have.
    [The prepared statement of Dr. Uccellini follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
 
    Chairwoman Fletcher. Thank you. Thank you, Dr. Uccellini. 
I'm learning we need to sit very closely to the microphones.
    We will now hear from Dr. Rifai.

                 TESTIMONY OF DR. HANADI RIFAI,

               JOHN AND REBECCA MOORES PROFESSOR,

          ENVIRONMENTAL ENGINEERING GRADUATE PROGRAM;

                   AND DIRECTOR OF HURRICANE

                 RESILIENCE RESEARCH INSTITUTE,

                     UNIVERSITY OF HOUSTON

    Dr. Rifai. Chair Fletcher, Members of the Committee, I 
appreciate the opportunity to testify before you here today. My 
name is Hanadi Rifai, and I am John and Rebecca Moores 
Professor of Environmental Engineering and Director of the 
Hurricane Resilience Research Institute, or HuRRI, at the 
University of Houston. I organized my testimony today into 
three sections highlighting the past, the present, and the 
future of my hurricane and coastal research. I'll start with 
the past.
    My journey with hurricanes and severe storms dates back to 
Hurricane Katrina in 2005. At the time, we in Houston felt New 
Orleans' pain profoundly. A group of us, faculty from Houston 
and Louisiana, met to discuss what could be done, and that was 
the seed that germinated the Severe Storm Prediction, 
Education, and Evacuation from Disaster, or SSPEED, Center. It 
was difficult then to secure research funding for the center, 
and it remains difficult now to do the same.
    My work with SSPEED focused on Houston's industrial 
infrastructure and its vulnerability to natural hazards. The 
industries along the Houston Ship Channel produce, store, and 
transport chemicals and petrochemicals. And in times of natural 
hazards, the processing units, storage, and transportation 
facilities, including the Port of Houston, are vulnerable to 
storm surge, wind, rainfall, and high-channel flows. There are 
upwards of 4,100 storage tanks in the Houston Ship Channel, and 
they are full with various types of chemicals and 
petrochemicals, and the tanks themselves have various shapes 
and sizes.
    Our research at SSPEED developed the first-of-its-kind 
predictive model. The model quantifies economic losses in the 
Houston Ship Channel that would be incurred due to varying 
storm surge heights at the individual facility level and for 
the entire Houston Ship Channel. With this model, we call it 
FEDERAP, we predicted catastrophic losses exceeding $70 billion 
at 25 foot surge just from the Houston Ship Channel and the 
Port of Houston alone.
    Other related and critical research that we undertook in 
the SSPEED Center involved a closer look at the environmental 
impacts associated with surge protection and building gates and 
barriers across parts of the Galveston Bay system. We have 
developed relatively short- and long-term models of bay water 
quality looking at temperatures and salinities when such 
mitigation measures are implemented that can be used to inform 
surge protection systems design and implementation. Much more 
effort, however, is needed to further develop these models into 
robust predictive platforms that can elucidate the--incorporate 
changes in sediment regimes, flood flows in the San Jacinto and 
Trinity Rivers, the timing of the flood flows, drought cycles, 
climate change, and sea-level rise. But importantly, we must 
maintain the delicate balance of the Galveston Bay system 
between its freshwater inflows and its healthy interaction with 
the Gulf Coast.
    It brings me to the present. As we embark on our recovery 
journey in Houston after Harvey, the affinity we felt with 
Louisiana in 2005 expanded. We now were looking at the entire 
Gulf Coast because of the severity of the 2017 hurricane season 
and its disastrous outcomes for all of us from Texas to 
Florida.
    In forming HuRRI, we aimed to catalyze innovation. We're 
looking at six dimensions of resilience. We call them MAPPER. 
These include mitigation, assessment, prediction, protection, 
education, and recovery. The main goal of our institute is to 
change the paradigm from waiting and paying for hurricanes to 
anticipating and accommodating them to save lives and reduce 
damages and costs associated with natural disasters.
    At present, HuRRI faculty are undertaking 12 collaborative 
projects that span hurricane flood modeling, sensor 
development, resilient power systems, mental and physical 
health during hurricanes, and public policies associated with 
hurricanes and severe storms.
    In my own research program and with the National Science 
Foundation grant and seed grant from the College of Engineering 
at the university, I mobilized my research team immediately 
after Harvey, and we began to assess the environmental damages 
and the chemical and biological hazards that may have been 
released during Harvey from environmental and industrial 
infrastructure. We sampled water and sediment quality many, 
many times over a 1-year period to assess the resiliency of our 
waterways, our natural water systems, and Galveston Bay. The 
results were astounding. It was evident that our waterways have 
become rivers of brown, carrying with them a chemical and 
biological mix of pollutants onto land, into homes, and into 
waterways and sensitive ecological systems.
    The overall impact on Galveston Bay is yet to be fully 
quantified and understood. In addition to near zero salinities 
for an extended period of time, the system experienced 
extensive sediment deposition and erosion, pollutant loads 
containing organics, metals, and pathogenic organisms.
    While the full impact of Hurricane Harvey remains unknown, 
what is clearly apparent, however, is that much research is 
needed on how to soften the impact from environmental and 
industrial infrastructure failures. This knowledge gap has 
never been more greater or glaring to us as we observe the 
uneven distribution of these impacts amongst Houston's 
communities. We determined that while flooding was universally 
inclusive, human health effects were not equivalently borne by 
our communities. We found a disturbing pattern of their 
prevalence in areas with a high percentage of concentrated 
disadvantage populations.
    This brings me to the future, which is what we're all 
about, I hope, here. Harvey is not your typical storm for 
Houston by any stretch of the imagination. What the climate 
experts, however, are telling us is that storms like Harvey are 
the new normal and that in the future, hurricanes and severe 
storms will be more frequent, more intense, they will linger 
around longer, and they will move slower. These factors, when 
taken together, do not portend a bright future for our region. 
Houston, until Harvey, was still implementing Tropical Storm 
Allison recovery projects. In that last 15-year period, we've 
had multiple severe storms and a hurricane.
    Confronting the recent rise in disaster losses locally is a 
defining challenge for Houston as we aim to be both resilient 
and smart. The good news is we do have scientific and 
engineering foundations that can reduce the toll on humans, 
economic, environmental, and infrastructure losses from extreme 
events. However, investments in research must be made to build 
our society's capacity to reduce and manage risk and create 
resilient and prosperous communities that are not just well-
prepared but socially just.
    My analogy and justification for increased research funding 
for hurricanes and coastal resilience stems from observing the 
benefits derived from directing funding toward research from 
penalties after the Deepwater Horizon disaster. Obviously, we 
cannot penalize Mother Nature for hurricanes and severe storms. 
On the contrary, we need to respect her power and accommodate 
it. And this can only be accomplished with research and funding 
for research on how to best achieve hurricane and coastal 
resilience. There is much to be learned on how to harden the 
physical infrastructure, how to soften the environmental 
impacts, how to understand the ramifications of transitioning 
to the new NOAA Atlas 14 storm on flooding, infrastructure, and 
communities, and even greater need is to understand future 
climate projections, sea-level rise, and their impacts on our 
region.
    Research should guide our decisionmaking into mitigation 
and remedies. Do we elevate homes? Should we expand buyouts? Do 
we build tunnels beneath Houston? Do we expand conveyance with 
our bayous? Do we build more detention capacity or more 
reservoirs? Better yet, do we need to research nature-based 
solutions and the possibility of recharging our depleted 
aquifers with floodwaters? We also need to research and develop 
strategies for rapid response during and after extreme events 
to protect people and ecosystems, especially human health.
    As academic institutions, our educational mission cannot be 
understated. Funding would be needed to integrate knowledge, 
training, research methodologies, and findings into existing 
and new curricula across disciplines to create a well-trained 
hazard and disaster mitigation workforce. Importantly, we need 
to leverage the power of data, data analytics, machine learning 
(ML), artificial intelligence (AI), and emerging and enabling 
technologies in and hurricane protection. We have made 
significant advances and coordinated declarations of disaster, 
disaster response, and evacuations. This is the right time to 
begin to anticipate and accommodate extreme events and focus on 
recovery and resiliency.
    One of the most important steps we should take--and 
admittedly, I am somewhat biased in my passion toward research, 
science, engineering, and technology--is to provide continuous 
and sustained support for research and research centers such as 
SSPEED and HuRRI. We have missions and visions that transcend 
day-to-day living and are forward-thinking and forward-looking 
engines of innovation and creativity.
    In conclusion, I greatly appreciate the effort of this 
Committee to support hurricane and coastal resilience research 
that keeps Houston and America safe, secure, and globally 
competitive and assures constituencies a high quality of life, 
health, and prosperity. I'd be glad to answer any questions you 
may have.
    [The prepared statement of Dr. Rifai follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Chairwoman Fletcher. Thank you, Dr. Rifai. Ms. Grover-
Kopec.

                TESTIMONY OF EMILY GROVER-KOPEC,

       DIRECTOR OF INSURANCE PRACTICE, ONE CONCERN, INC.

    Ms. Grover-Kopec. Thank you, Chair Fletcher, Chairwoman 
Johnson, distinguished Members of the Committee, for holding 
this important hearing and for giving me the privilege of 
providing a private-sector perspective. And thank you to the 
Committee staff, who have been a pleasure to work with in 
preparing for this hearing. It is an honor to address the 
Committee regarding the importance of creating resiliency 
through scientific R&D (research and development) in a city 
that knows firsthand the importance of a more resilient future 
and to do so in my current capacity directing the insurance 
practice at One Concern, a benevolent artificial intelligence 
company.
    At One Concern, our mission is to prepare communities to 
save lives and economic livelihoods through action before, 
during, and after natural disasters. My testimony today focuses 
on using R&D in AI and natural hazard sciences to predict 
disaster damage, aid officials during all phases of emergency 
management, and drive informed decisions that create resilient 
systems and financial tools.
    One Concern's work would not be possible without the R&D 
performed and funded by the U.S. Government and at universities 
around the country. We are developing technology to minimize 
the impact of disasters like the flooding Houston experienced 
during Hurricane Harvey, as well as earthquakes and wildfires. 
Our AI platform removes the elements of human bias and 
insufficient data in times of crisis, providing objective 
situational awareness in near real time to drive informed 
response.
    Machine learning and AI sit at the core of these analytics, 
helping to unlock new ways of understanding how complex 
disciplines interact. And these mathematical algorithms 
leverage several fields of scientific study, including 
hydrodynamic and hydrological-coupled science, structural 
engineering, fluid mechanics, seismic and atmospheric sciences.
    A specific example of One Concern's unique research efforts 
is our platform's application for active flood events that 
provides a high-resolution understanding of impending flood 
inundation based on forecasted precipitation generated by the 
National Weather Service. The solution's AI-driven approach 
allows it to correct and adjust during the event, thereby 
addressing the core complexity associated with modeling floods: 
Their dynamic nature.
    Decisions around evacuations in large metro areas like 
Houston can be informed by technologies like ours that provide 
a granular view of an impacted area at a block level up to 5 
days out from a flooding event. This provides an understanding 
of which populations face the greatest risk and, through our 
continued R&D process, will allow first responders to 
understand the impact of mitigated actions. This level of 
situational intelligence could potentially change outcomes by 
informing targeted evacuations and mitigation to divert 
floodwater away from people and critical infrastructure. We are 
also working with jurisdictions to implement our flood risk R&D 
toward other proactive preparedness efforts, allowing emergency 
personnel to create better plans for a disaster.
    R&D such as One Concern's could have even more impact 
through pre-disaster mitigation. We believe it is important 
that policy and infrastructure planning intended to improve 
resiliency should be equitable, should focus in on mitigation 
overall societal risk rather than mitigating purely the 
greatest financial risk, the latter of which tends to show bias 
toward the most affluent.
    Our data and models assess the baseline resilience of the 
entire community, including how natural hazards impact 
structures, as well as critical infrastructure. Our R&D, 
therefore, would be well-positioned to drive equitable and 
informed decisions around overall societal resilience.
    In addition to effective mitigation, preparedness, 
response, and access to insurance to support a community's 
recovery plays a critical role in resilience to disasters such 
as hurricanes and their associated flooding. One Concern's 
current R&D efforts include assessing the risk to a business' 
physical structure, as well as its access to power, water, 
roads, and bridges. This provides a transparent view of a 
business' overall resilience, which will enable an expansion of 
insurance and resilience finance tools. We seek to partner with 
businesses and insurers to support the development of new 
insurance products that will help businesses, their 
communities, and the economy to recover. Ultimately, this helps 
transfer risk from taxpayers to the private sector.
    In closing, I would like to again thank Chairwoman and the 
Committee for inviting me to share One Concern's ongoing R&D 
efforts to create a more resilient future. Thank you.
    [The prepared statement of Ms. Grover-Kopec follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Chairwoman Fletcher. Thank you. Mr. Blackburn?

                   TESTIMONY OF JIM BLACKBURN,

        CO-DIRECTOR, SEVERE STORM PREDICTION, EDUCATION

            AND EVACUATION FROM DISASTERS CENTER; AND

        PROFESSOR, DEPARTMENT OF CIVIL AND ENVIRONMENTAL

                  ENGINEERING, RICE UNIVERSITY

    Mr. Blackburn. Good afternoon, Chair Fletcher, Members of 
the Committee. I'm pleased to be here today to discuss 
resilience and research in my capacity as Co-Director of the 
Severe Storm Center at Rice, the SSPEED Center. In our work at 
the SSPEED Center, we were fortunate to be funded by a private 
foundation, the Houston Endowment, and we were able to use the 
latest and best cutting-edge methods to address flooding from 
coastal surge and from inland rainfall. We were allowed to make 
mistakes and find new ways forward. I would like to share with 
you what we've learned from that experience.
    Three implementable concepts have come from this research. 
First, we've developed a structural solution along the Houston 
Ship Channel called the Galveston Bay Park plan, a plan to 
protect the Houston Ship Channel industries and the west side 
of Galveston Bay from a 25-foot surge. This Park plan is 
compatible with the coastal spine project of the Corps of 
Engineers, and the park plan is being developed alongside the 
proposed widening of the Houston Ship Channel, working with 
stakeholders such as the Port of Houston Authority.
    Second, an economic solution--the Texas Coastal Exchange--
is now a standalone nonprofit that will make grants to 
landowners for storing flood waters and carbon dioxide in their 
soil.
    And third, the proposed Lone Star Coastal National 
Recreation Area focuses on enhancing ecotourism and economy 
that is flood-resilient. Our research has convinced us that 
flooding is the biggest threat to the economic future of the 
Houston region, period. There are 2.2 million barrels of 
refining capacity, 200-plus chemical plants, and 800,000 people 
that are unprotected from hurricane surge along the Houston 
Ship Channel and the west side of Galveston Bay. The loss of 
these plants represents a legitimate threat to national 
security. This is what keeps me up at night.
    In our work at SSPEED Center, we found that a lack of 
adequate procedures and practices to integrate hydrology, 
climate, economy, ecology, and social considerations. They just 
simply don't exist. Current engineering and political science 
methodologies are antiquated. Our floodplain maps are wrong and 
understate the risk. In many ways, our current thinking about 
flooding is obsolete. We are not going to control storms like 
Harvey. We can learn to live with them. Big rains are coming, 
and we must make room for the water. We need a better 
understanding about the intersection of engineering and the 
storms of the future.
    Our climate has been, is, and will be changing. We must 
understand these changes to develop realistic engineering 
solutions. We need innovative urban design thinking for our 
cities. Our creativity needs to be jumpstarted. We are mired 
currently in 20th-century thinking facing 21st-century 
problems. We need economic methodologies that work with our 
engineering solutions.
    There's likely not enough Federal money to solve all the 
flooding problems in the coastal United States. Therefore, we 
need to research and understand how the private sector can 
participate in funding these solutions. We're committed to 
finding private-sector funding for the $3-$6 billion that the 
Galveston Bay Park Plan requires. We need research about how 
insurance and investment funds and other private capital 
sources can become a major part of our flood solutions not only 
here but throughout the United States.
    We need a better understanding of risk. What is a 
reasonable hurricane surge in the future with a hotter Gulf of 
Mexico? What is a reasonable rainfall to plan for in 2025 or 
2030? What level of risk is acceptable? Our engineering 
solutions are designed to last at least 50 years if not more, 
including highways, buildings, landfills, and hazardous waste 
sites. What we are building today must be functioning in 2040, 
in 2070. That will not occur with our current tools.
    Successfully addressing flooding is fundamental to 
succeeding as a region in the 21st century. It is the threat to 
the future of Houston. For the first time in 40-plus years, I 
am hearing the word fear used in conjunction with rainfall. And 
it is clear that national security is implicated. Why don't we 
think about flooding like President Kennedy thought about the 
space program back in 1962 when he spoke at Rice Stadium? We 
shouldn't undertake flood research because it's easy but 
because it is hard, because that challenge is one that we're 
willing to accept and one which we intend to win.
    Please consider forming a national flood-related research 
effort with a space-program mentality. We actually put 
astronauts on the moon with our research. Let's actually solve 
our flooding problems. Such a flooding program should focus 
upon practical applied research perhaps along the lines of the 
old National Science Foundation Research Applied to National 
Needs program. Such a program could be a major step in solving 
the severe storm flooding problem that threatens our national 
security in ways far beyond any other domestic and perhaps 
international problem.
    We can do this. We must do this. Thank you very much.
    [The prepared statement of Mr. Blackburn follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Chairwoman Fletcher. Thank you, Mr. Blackburn.
    So at this point we will begin our first round of 
questions. We will begin with the Committee Members of the 
Science, Space, and Technology Committee, and then we will turn 
to our colleagues from our Houston delegation to ask questions 
as well. With time permitting, we will have two rounds of 
questions.
    And for those of my colleagues--since we are in a field 
hearing, it's a little bit different than our setup that we're 
used to in Washington. But we each will have 5 minutes to ask 
questions of any of the witnesses on the panel, and I would 
remind my colleagues that the timer is right at the base of the 
stairs of the 5 minutes. And the lights will light up, and the 
witnesses should be able to see it as well to know if we're 
coming close to time.
    So with that, I will recognize myself for 5 minutes. My 
first question is directed to Dr. Uccellini. In the face of 
changing climate, Dr. Uccellini, what role can the Weather 
Service play not only in a short-term weather forecasting and 
predictions but also in long-term climate predictions? And, as 
we think about those challenges facing the coast, can you tell 
us what extent the Weather Service is currently engaging with 
stakeholders in the coastal resilience and infrastructure 
community on these particular issues?
    Dr. Uccellini. OK. So a number of questions there. With 
respect to the changing climate and its impacts along the 
coast, the principal impact has to do with the rising sea 
levels. With the warming ocean, the sea levels will rise for 
two principal reasons. One is the expanding volume of the water 
that's heated, and the melting ice that we see over the globe 
is certainly having its contributions to the rising sea level 
as well.
    We--now, we have to accommodate that background--changing 
background state into storm surge and potential impacts of 
intense storms, whether they be hurricanes or extratropical 
storms as well. So we do that--that's part of the short-term 
aspect is recognizing that background state is changing, and we 
need to account for it with respect to our watches and 
warnings.
    With respect to, you know, research into the changing 
climate, the Weather Service has responsibilities for 
predicting out to the sub-seasonal to seasonal range. And what 
we're doing today that we weren't doing 15 years ago is using 
dynamic climate models to improve or attempt to improve those 
forecasts that are used for water resource management, et 
cetera. We're seeing success in the temperature forecast. We're 
actually seeing challenges with precipitation forecast, and 
that's probably going to be the biggest challenge that we--that 
we'll face.
    We work with the climate community in these models by 
running them every day and in some cases like in our models we 
run four times a day. We are testing the fidelity of the 
algorithms that are then used by the research community in the 
global change arena. So our effort is to continue to improve 
those models both from a dynamic and from a physical 
perspective. And then we put those results back to the--to 
those researchers within government, within the academic 
community, on the--these model changes.
    So, you know, that's basically what we're working with both 
from a short-term and long-term perspective.
    Chairwoman Fletcher. Thank you, Dr. Uccellini. And my next 
question is to the other panelists, if any of you all could 
talk about how the National Weather Service products and 
services, which are particularly useful in your research or 
where there might be additional areas where you would like to 
see opportunities for weather research for your purposes.
    Dr. Rifai. So we use the products extensively, and we are 
very much dependent on a lot of the data that's generated. 
Obviously, the precipitation information, the climate change, 
the sea-level rise. I think it's going to be hard for us in the 
research community to keep up with change, so that's something 
to think about.
    In Houston, we're designing or have designed for 12.5-inch 
storm. The new Atlas could be anywhere from 16 to 18 inches. 
Experts tell us hydrologists such as myself, that our capacity 
in our bayous is no more than 6 to 8 inches in a 24-hour 
period, so we've got a big disconnect to live up to, and that's 
really the biggest challenge is this gap between what we're 
getting from NOAA to what really needs to be done and is being 
done at the--in the trenches so to speak.
    Chairwoman Fletcher. Thank you.
    Mr. Blackburn. Do you want to say something?
    Ms. Grover-Kopec. Yes, briefly.
    Mr. Blackburn. Go ahead.
    Ms. Grover-Kopec. Yes. We also make extensive use of 
National Weather Service products. So I mentioned that we use 
the quantified precipitation forecast for our flood modeling 
for live events, and we're trying to actually extend our 
technology as the Weather Service does the same, right? So 
there's a lot of work and funding going into the MRMS project 
from out of the National Severe Storm Laboratory. That's Multi-
Radar/Multi-Sensor project, sort of the next step in 
understanding quantified precipitation as it falls. And we'll 
be utilizing that data and working it into our technology as 
well. We also utilize some of the weather observations into our 
wildfire monitoring to understand live events for wildfires as 
well.
    Chairwoman Fletcher. Thank you.
    Ms. Grover-Kopec. Yes.
    Chairwoman Fletcher. Mr. Blackburn briefly.
    Mr. Blackburn. I'd just like to add that we make extensive 
use of what we have access to. It would be nice to see that 
work expanded in the sense of not only looking for what has 
happened in the past up to 2017, which is what NOAA Atlas 14 
does, but begin to get projections of where we see these storms 
going in the future because that's what's really important to 
me because we're building stuff now, like I said, that's going 
to last for 50 years. And we need to know what that climate 
looks like going forward, and we don't really have the tools at 
all that will help us make those decisions. And I think that's 
an area for serious research. Thank you.
    Chairwoman Fletcher. Thank you, Mr. Blackburn. And I have 
now exceeded my time, so I will yield back. And I will 
recognize Dr. Babin for 5 minutes.
    Mr. Babin. Thank you very much. I just lost 4 seconds 
there. OK. All right. To the panel----
    Dr. Rifai. I'm glad you can see it.
    Mr. Babin. Can each of you, very briefly if you would, 
identify for us the areas where you believe this Committee can 
best focus on the research or moving forward both for weather 
forecasting and developing resilient communities? And we'll 
start with you, Mr. Blackburn. And try to keep it as brief as 
possible.
    Mr. Blackburn. Well, briefly, urgency. I think there is an 
urgency about addressing and really elevating this flooding 
problem to the--I think the national security issue that it is. 
And I think you could help with your abilities to focus us as a 
Nation on that issue. And I think a lot of the rest of it will 
follow.
    Mr. Babin. I could not agree more because I represent oil 
refining and chemical facilities in my district than anywhere 
else in the country.
    Mr. Blackburn. Yes, sir.
    Mr. Babin. And after Ike, the gasoline price spiked 
throughout the country, and so I appreciate that answer. Ms. 
Grover-Kopec.
    Ms. Grover-Kopec. Actually, I think through action 
demonstrated by this hearing is being open to new technologies 
like AI and ML. There's broad understanding of its potential 
across the board not just for disaster resiliency, and 
congressional committees have put some good funding into 
resilient projects. And having those projects being open-minded 
to including new technologies to demonstrate the efficacy and 
accuracy of those products would be a great way----
    Mr. Babin. OK.
    Ms. Grover-Kopec [continuing]. To implement them.
    Mr. Babin. Thank you.
    Ms. Grover-Kopec. Yes.
    Mr. Babin. Doctor?
    Dr. Rifai. So in the big scheme of things we're heavily 
weighted on built environment and on infrastructure. We've paid 
a lot of attention to that, not so much on people. I think we 
need to bring both in the balance and start thinking about how 
people interact with their natural and built environment and 
their infrastructure.
    Mr. Babin. Excellent.
    Dr. Rifai. To me, that's very important.
    Mr. Babin. Excellent. Dr. Uccellini?
    Dr. Uccellini. Yes, thank you for the opportunity to answer 
this question. First of all, the extensiveness of the effort 
that's actually involved, technology through science and any 
related applications.
    Support of the Weather Act, this is probably the most 
foundational law that's been enacted that I know of that will 
have a direct impact on our ability to serve and people to 
react.
    Understand that it's from a spectrum from observations 
forecast to decisionmaking, so it's the importance not only of 
the physical sciences but the social sciences. We have to have 
both to move forward.
    Mr. Babin. OK. Yes, thank you. Excellent.
    And, Mr. Blackburn, much of your research is focused on 
resilience. Lack of resilient infrastructure was clearly an 
issue when Hurricane Harvey made landfall in August 2017. As we 
seek to prepare for future severe weather events, how do you 
differentiate the roles of different levels of government? What 
role should the Federal Government play in helping communities 
to improve resilience to these types of weather events?
    Mr. Blackburn. Well, I think all levels of government have 
to play in this, and I think the Federal Government 
historically has been a funder, a major source of funding. I 
would tell you that what I would like to see the Federal 
Government do is to reevaluate the methodologies they use to 
evaluate funding. I think there is a lot that can be done 
there.
    Our local government has stepped up with a $2.5 billion 
Flood Control bond issued in Harris County. The State of Texas 
has begun to get involved, and they were the last to get 
involved, and they were missing for a long time. But I'm happy 
to see that they're involved. All three have to be involved. I 
would say that a lot of the lead could come from the local 
government, but I think the Federal Government has always been 
the rudder, and think it will continue to be the rudder that 
will guide us. I would just like to see your methodologies 
updated. Thank you.
    Mr. Babin. Thank you as well. I'd also like to reiterate 
not only do I have the petrochemical plants, but I also have 
Port of Houston. And it was shut down. And so it was an acute 
feeling of helplessness when we----
    Mr. Blackburn. I understand. We're working on that, and----
    Mr. Babin. Yes.
    Mr. Blackburn [continuing]. We'll be back in touch with you 
on that.
    Mr. Babin. You bet. Dr. Uccellini, Hurricane Sandy struck 
New Jersey and New York October 2012, causing tremendous 
damage. What lessons were you able to take from forecasting 
Hurricane Sandy to the forecast for Harvey, and what lessons 
did you learn from Harvey, and how will you be able to apply 
those to future hurricane forecasts?
    Dr. Uccellini. Well, Hurricane Sandy and Hurricane Harvey 
had similar traits and that is that they were highly unusual in 
terms of their track and the duration. I would say that from a 
forecasting perspective and a very difficult what we call 
predictable--predictability issue with respect to Sandy, that 
the forecasters did a remarkable job in predicting and 
communicating uncertainty.
    What we learned from Sandy, however, is the connectivity 
with decisionmakers across the government spectrum--local, 
State, to Federal--and it's been since Sandy that we've really 
adopted that into our strategic goal of building a weather-
ready Nation and providing what we call now impact-based 
decision support services, which is also authorized by the 
Weather Act. And what this means is that we have to practice, 
practice, practice, practice, practice before an event, well 
before an event, establish the trust with these decisionmakers. 
And that's--I think was a test of us in Harvey and up and down 
the Texas coast.
    I'll point out that with the new satellite that was 
launched and our co-location with the emergency managers who we 
know each other really well, there were some tremendous 
decisions made during Harvey up and down the Texas coast, 
including where the eye wall crossed the coast and firemen went 
out in the eye itself--that never would have happened before--
and saved over 200 lives. So we learned our lesson there.
    What we know for now is that we can't rest on past laurels. 
We scrub every event to learn what to do for the next event. 
And we're always in the process of doing that.
    Mr. Babin. Thank you very much, and I yield back. My time 
is expired.
    Chairwoman Fletcher. Thank you. Thank you, Dr. Babin.
    Mr. Babin. Yes, ma'am.
    Chairwoman Fletcher. I will now recognize Mr. Weber for 5 
minutes.
    Mr. Weber. Thank you, Madam Chair. And since I'm going to 
be leaving for an airplane here shortly, do I get 10 minutes 
now? I'm just asking.
    It's a great event you're holding here, and we really 
appreciate that. I do have a lot of questions. And I will be 
here for round two.
    Dr. Uccellini--am I saying that right--we got to tour the 
National Weather Service this morning, and you did a fab job 
down off of Highway 646 in Galveston County, which happens to 
be in my district. Hurricane Harvey, for many of you all who 
may or may not know, we were ground zero for flooding. I 
represent all three coastal counties starting at the Louisiana 
border. I got Jefferson County, then I've got Galveston County, 
then I have the southern half of Brazoria County. So for us it 
was a huge event.
    I got to drive all three counties during that time, as I 
told you all earlier today. I have an F-350 1-ton truck 4-
wheel-drive. I'm from Texas after all. It sets up about knee-
high, and I can go through water that most cars would never 
dream of. I got to watch you all in action, I've got to watch 
Jefferson County Emergency Management Center in action, and I 
got to watch Brazoria County Emergency Management Center in 
action. So I got up close and personal to watch this in real 
time what we were going through.
    So this is a very timely hearing, Congresswoman Fletcher. 
Again, I applaud you for holding it.
    This stuff is huge and very, very important to the Texas 
Gulf Coast. Dr. Babin is right. He may have more refineries 
than I do, but we actually manufacture about 65 percent of the 
Nation's jet fuel in my district, about 20 percent of the 
Nation's gasoline east of the Rockies. And when you take the--
in my district. Now, that's without the Port of Houston. Jump 
up and grab that port, it's almost 85 percent of the Nation's 
gasoline, almost 60--jet fuel rather, and almost 45 percent of 
the gasoline. It is huge, about 6 million people in the 
collective area.
    I noticed that you talked about 800,000 people up and down 
the Ship Channel, but I would say let's expand that to all the 
families and the homes and the jobs that it represents, so that 
this is a huge issue for us to tackle.
    Well, all that to say that being a Member of the Science 
Committee, we are actually working on now a new type of 
supercomputing. You've probably heard about it. And my question 
is, are you interacting with any of the national labs on 
quantum computing?
    Dr. Uccellini. The research component of NOAA certainly is, 
and as we work our way toward the next generation of computing 
over the next 10 years, we are actually--well, NOAA and 
especially the Weather Service is what's been designated as an 
implementing agency. So we are certainly working with the 
research community within the government and outside the 
government on this next-generation compute, and we stand ready 
to be able to run on those computers and test out the new 
technology.
    Mr. Weber. Well, thank you for that. You said in one of 
your question and answers with one of the Members that you are 
running tests on algorithms. And if I understand correctly, 
quantum computing helps us run tests on algorithms. And maybe 
this is a question for the lady from the AI community.
    Dr. Uccellini. Right.
    Mr. Weber. Just super, super fast. Do you know if that's 
the case? Quantum computing--I'm sorry, your name is----
    Ms. Grover-Kopec. That's OK.
    Mr. Weber. Dr. Grover-Kopec. Am I saying that right?
    Ms. Grover-Kopec. It is, yes. I will defer--we are not 
using it, but I think it's more attuned to the scale of work 
that the Weather Service----
    Mr. Weber. Right.
    Ms. Grover-Kopec [continuing]. That NOAA is doing.
    Mr. Weber. Now, you did mention in your testimony that you 
want to take the human element out of it as much as possible. 
You want this artificial intelligence to be making--and 
obviously, they can make decisions quicker than any of us can 
generally speaking. But I will tell you, based on what I said 
earlier, I made all three of those counties--for about a solid 
week and a half I was on the ground in all of the emergency 
management centers. I was in many of the shelters and watching 
this in real time unfold. The Brazos Port River and the San 
Bernard River come to the southern Brazoria County, and my 
district director and I were over there day 1, and we said it's 
only a matter time before everything downstream is flooded. So 
we watched that very closely.
    I have to say, especially the Weather Service, who is 
embedded with the emergency management center over there in 
Galveston County, the people that were making those decisions 
were making it based on families and houses and neighborhoods 
and yes, industry, and yes, the ability to produce and 
manufacture gasoline, diesel jet fuel. You can go right--
refined chemicals. You can go right down the list. So if we 
come in with artificial intelligence, are we going to be able 
to do that in such a way, Ms. Grover-Kopec, that will help 
those people to interface with those local officials?
    Ms. Grover-Kopec. I think that's exactly the point, right? 
So maybe just to clarify my comment and then respond, some 
common hesitancy around machine learning is that there's 
inherent bias in the data. And so my point is in creating 
models in the data that we collect, we're doing so in a way to 
avoid that bias.
    But in terms of actually using the modeling to respond to 
events, we're absolutely on the same page. So, for example, the 
products that we put out for our live events actually allows a 
jurisdiction to look to see where the most vulnerable 
communities are, where are the hospitals, where are the nursing 
homes, where are the schools so that they can respond 
appropriately and have the human element of response in the 
decisionmaking, not in the analytics. If that make sense?
    Mr. Weber. OK. Well, I'm over my time. I appreciate that. 
Thank you, Madam Chair. I yield back.
    Chairwoman Fletcher. Thank you, Mr. Weber. I will now 
recognize Mr. Olson for 5 minutes.
    Mr. Olson. Thank you, Chairwoman Fletcher, and thank you so 
much for your hard work to make this very important field 
hearing happen. And welcome to our four witnesses. A special 
welcome to Dr. Uccellini. One of your alumni from your alma 
mater, a guy named J.J. Watt, showed what Houston Strong means 
during Hurricane Harvey. That man by himself, our star football 
player, promised to raise $250,000 for our citizens here in 
Houston. He stopped at about $338 million. That is Houston 
Strong. That is J.J. Watt. Thank you, Wisconsin, for giving us 
such a hero.
    As you all know, damage from hurricane comes from mostly 
two sources, a storm surge--a wall of water--and heavy, heavy 
rainfall. Hurricane Ike in 2008 had a wicked storm surge 
wherein above the sea wall built after the Galveston hurricane 
in 1900 ricocheted off the older part of Galveston Bay, came 
back, hit Galveston without protection, and I saw all the 
damage that happened because of Hurricane Ike. And that was 
just a category-2 storm.
    Harvey was not a storm surge, at least not for us. Some 
parts of my district got 5 feet of rain in less than 2 days. In 
fact, it got so bad, as the Chairwoman knows, there are two 
reservoirs near Kinney, Texas. One is called Barker, one is 
called Addicks. They've never been open to stop an overflow of 
the levees, of the dams. They had to open those gates early, in 
the middle of the night. It flooded 600 homes, the subdivision 
called Canyon Gate. Those people woke up homeless.
    And so there's all sorts of solutions. We've talked about a 
third reservoir up there with Barker and Addicks. We've talked 
about a tunnel coming from Kinney down through Texas City, La 
Marque to Galveston Bay. We've talked about the coastal spine.
    But my question is, in your opinion, all of you, and 
starting from the left to the right with you, Mr. Blackburn, in 
your opinion, how should we be investing our limited resources? 
How do we balance things between storm surge, rain in an 
environment where, coming from D.C., our funds are very 
limited? As you know, right now, we're facing a $21 trillion 
national debt, and that's going to go up this week. So without 
a boatload of money coming from D.C., how can we fight to make 
sure we're resistant in the future--prevention?
    Mr. Blackburn. Well, that's a tough one. And I appreciate 
you asking that.
    Mr. Olson. That's why I'm here.
    Mr. Blackburn. I understand that. I appreciate you asking 
the question. A couple of thoughts on that. First of all, I 
think we've got to find more sources of money than just the 
Federal Government. We've got to--I mean, I mentioned the fact 
about trying to figure out how to bring other sources of money 
to this. There's all sorts of creative bond concepts that are 
out there. They're not being implemented. I don't know why. I 
think this is one of the things we're about to find out a lot 
more about.
    But I would just say, one, trying to increase the pool of 
money that is available ought to be a priority, and I think the 
private sector is a place to look and find that support.
    Second, I think that there needs to be prioritization of a 
number--I think you've got to split between storm surge and 
between rainfall flooding. They're both big issues. They're 
both huge issues. I would tell you the surge flooding is 
perhaps the more violent of the two. I think you've got a 
greater chance of loss of life. I think you've got a lot of--a 
better chance of major industrial damage and a huge 
environmental release. And I think that just on that scale 
surge demands a lot of attention. And we forget it a lot 
because it seems like we have a 100-year rain here all the 
time, but it--we don't have a 100-year surge very often. But I 
would split that between the two. Thank you.
    Mr. Olson. Ms. Grover-Kopec?
    Ms. Grover-Kopec. I actually--I might turn the question on 
its head a bit. Rather than focusing on diverting research 
toward one aspect of a peril versus another, rainfall flooding 
versus surge, I would look at what makes the community more 
resilient regardless of where that water is coming from. And it 
won't surprise you that I'll say insurance. Take up for 
insurance among private citizens for flood is incredibly low, 
and we know that a significant amount of the loss that was seen 
in Harvey was outside of the NFIP (National Flood Insurance 
Program) take-up.
    So to Dr. Rifai's comments around social behavior, there's 
actually research in trying to guide the positive 
decisionmaking to get people to purchase that insurance, and 
having the products there available to them I actually think 
would be a good start.
    Mr. Olson. Well, darn, you're ready for Congress with that 
answer.
    Dr. Rifai, your comments?
    Dr. Rifai. So, very simply, I would second the motion and 
say we really need to incentivize resilience. Instead of paying 
us for damages, make us do it better. And when we do it better, 
it doesn't break.
    Mr. Olson. Dr. Uccellini?
    Dr. Uccellini. Well, thank you. I was actually--from a 
water resource management perspective, I can't offer 
engineering advice because I'm not an engineer, all right, and 
I don't know the--but we do know that if communities are ready 
and responsive to these extreme events, they tend to be more 
resilient. So a comment was made earlier about Barry wasn't as 
impactful as expected. Maybe it's the result of--that the 
community really had 5 to 10 days to become ready and 
responsive to the forecast.
    I suggest that if you even look at Harvey versus the 1900 
storm, there was no situational awareness of exactly where that 
storm was or when it was coming in and over 6,000 lives were 
lost. We'll never know how many lives were actually lost here. 
Eighty-eight lives lost is a terrible--that's a terrible 
statistic, but it could have been a lot worse if we didn't have 
this investment in what we're doing.
    So to address the issues that you're talking to will take a 
lot of effort in terms of becoming ready and responsive to 
increased resiliency. I would offer that, you know, we focus on 
the prediction aspect of that and working in partnership with 
the local communities to make that happen.
    Mr. Olson. Thank you. My time is expired. I yield back.
    Chairwoman Fletcher. Thank you, Mr. Olson. I'll now 
recognize Ms. Jackson Lee for 5 minutes.
    Ms. Jackson Lee. Thank you, Madam Chair. And let me thank 
Congresswoman Fletcher for a very significant, timely, and I 
would offer to say crucial hearing as we are on the precipice 
of the beginning of probably one of the more intense times of 
our hurricane season, which would be August really through into 
the fall.
    And I can imagine that we are certainly looking to the 
question of resilience, resilience I believe being one of the 
most important responses to the devastation of flooding and 
hurricanes.
    And I think people are also what is important because 
today, I was--it was brought to my attention of a 75-year-old 
who is still living in a trailer on her property, pursuant to 
Hurricane Harvey. That means that throughout our respective 
districts there are people who are still struggling to be 
resilient and to overcome the devastation of Hurricane Harvey, 
51 trillion gallons of water, which I think we have not seen in 
this region for the time of our hurricanes, separating from the 
Galveston hurricane in the early 1900s.
    So I thank the witnesses for their presentation, and I have 
a series of quick questions. I do want to make the point, 
however, about NOAA and its importance and the Hurricane 
Research Division, that NOAA is continuing to improve 
predictions of hurricane intensity, high and sustained wind 
speeds over the course of a storm's life, storm size, 
structure, rainfall, and flooding, and storm surge, all of the 
elements that we ran into--run into with respect to floods and 
hurricanes.
    So quickly to Ms. Grover-Kopec, you mentioned that when we 
mitigate risk, it should be all over. It shouldn't be in just 
high-income areas or high-cost areas. Can you just expand on 
that very briefly?
    Ms. Grover-Kopec. Sure. I just--it's--it's just--we're a 
very mission-driven organization and feel that resiliency is 
our mission and that it should be aimed at benefiting an entire 
community and all that contribute and live in the community. 
And typically, with current analytics that are used, purely the 
financial output is used, which is absolutely important. But 
we've actually been developing technology that allows you to 
look at the expense of the community that's impacted, the 
number of people, the number of homes, which might not 
necessarily equate to just the financial risk. So the financial 
element is purely important. We just advocate for taking a more 
broad view.
    Ms. Jackson Lee. It gives a fair shake to older 
neighborhoods, senior citizens----
    Ms. Grover-Kopec. Exactly.
    Ms. Jackson Lee [continuing]. Who are living in different 
conditions----
    Ms. Grover-Kopec. Exactly.
    Ms. Jackson Lee [continuing]. Than some of our newer 
neighborhoods. But then it does not eliminate them because 
you're talking about all over----
    Ms. Grover-Kopec. Exactly.
    Ms. Jackson Lee [continuing]. Which I think is extremely 
important.
    Mr. Blackburn, let me thank you for your long service on 
these issues. How important is our understanding and acceptance 
of this phenomenon of climate change in our continued research 
and funding by the Federal Government on this research dealing 
with hurricanes?
    Mr. Blackburn. I think it's incredibly important. The 
rainfall amounts are changing. The data show us that. I think 
that we've lost a lot of time arguing about this issue. I think 
just here in the community person after person will tell you 
that they're seeing a larger rainstorm than we've ever seen in 
the past, and the data support that. So I would say it's very, 
very important.
    Ms. Jackson Lee. So we need to focus our time understanding 
how impactful climate change is and using Federal resources, 
which you indicated were very important----
    Mr. Blackburn. Yes, absolutely. And looking to the future. 
I mean, what none of us have a clue about is what is it going 
to look like in 5, 10, 20 years. Those are the issues that are 
most important from my perspective.
    Ms. Jackson Lee. Ms. Rifai, would you explain--thank you--
the importance of having a well-trained workforce? I think you 
mentioned that. And then my final question would be to Mr. 
Uccellini to mention the use of social media in your work going 
forward.
    Dr. Rifai. So I think it's very important to educate our 
generations into this very severe challenge that we have, which 
is dealing with natural hazards. We really must inculcate it in 
every student, in every curriculum in every university, 
community college, high school. Schoolchildren, they are the 
future, and this is a problem that we're leaving them that they 
have to deal with. So I feel very strongly that this should be 
really integrated in everything so that not some of us are 
prepared, but all of us are prepared today and tomorrow.
    Ms. Jackson Lee. Thank you. Doctor?
    Dr. Uccellini. Yes, thank you for your question. I like to 
think of it in terms of the use of all media to get the 
information out. Social media is becoming increasingly 
important in interacting with groups of people who reassure 
each other that this is the real deal and they better take 
action, so we see that happening. We also get important 
information from the social media as the event is unfolding, 
which we can then factor into continually refining our messages 
during the event. So whether it's communicating outward or 
communicating in, the whole range of social media is being 
employed to keep track of exactly what's going on. Thank you.
    Ms. Jackson Lee. Thank you. Madam Chair, let me thank you 
very much for your courtesies, and I ask to be excused with 
other matters in my district. And I'd like to thank the Houston 
Community College for their hospitality. And I see that our 
Chairwoman is here. I certainly want to welcome her, as I know 
that you will. But thank you very much for having this a very, 
very crucial hearing.
    Chairwoman Fletcher. Thank you very much. And yes, I would 
like to recognize and acknowledge our Chairwoman of the 
Science, Space, and Technology Committee, Chairwoman Eddie 
Bernice Johnson, who has joined us from Dallas, delayed by a 
little bit of weather getting down here. But we are so grateful 
to Chairwoman Johnson for her leadership of this Committee, of 
really bringing together a bipartisan Committee, working 
together in a bipartisan way with the Ranking Member and 
serving as a great example to all of us, and for making it 
possible for us to hold this field hearing in Houston today.
    So thank you so much, Chairwoman Johnson, for joining us, 
and you are now recognized for your questions for 5 minutes. 
Thank you.
    Chairwoman Johnson. Thank you very much. And let me 
apologize for being late. I'm coming from Dallas. I started out 
at 10 this morning to get here. I had no control over what 
happened. Just blame the airline.
    Let me thank our Subcommittee Chair, Mrs. Fletcher, for 
taking on the leadership of having this hearing. I was 
delighted to support her and say welcome to the other 
distinguished Members of the Committee and our visiting Members 
as well.
    I knew this would be a very important hearing because of 
where you're located and because of the weather that we are all 
experiencing. We know very well that we are dealing with this 
weather change. And it's not a debate. The debate is what can 
we do to see if we can relieve ourselves of some of the 
outcomes.
    Let me welcome our witnesses and thank you so very much for 
being here.
    We know that we are dealing with a hotter, wetter 
atmosphere due to increased greenhouse gas emissions and 
increasing rainfall during typical cyclones. According to the 
Fourth National Climate Assessment, Hurricane Harvey rewrote 
the continental U.S. record for total rainfall from a tropical 
cyclone. It has been estimated that the climate change 
increased rainfall 38 percent during Harvey, and accordingly, 
Houston experienced record-breaking floods in the years between 
2015 and 2017. I know full well that is not a pleasant 
experience.
    Now, Dr. Blackburn, thank you so much for being here. As 
extreme rainfall and flooding intensifies in the Houston area 
due to a changing climate, what research has been done on 
improving the resiliency of roads and infrastructure?
    Mr. Blackburn. In terms of the roads and infrastructure 
specifically, I would say that they are--in a way are among our 
more vulnerable infrastructure that we have. Unfortunately, 
they were built at a time before much of the information that 
we have now is--was well-known, so many of them are below the 
current 100-year floodplain and maybe below the--and certainly 
will be below the 100-year floodplain once it's readjusted with 
the NOAA Atlas 14 data.
    So we--I would tell you that roads are extremely 
vulnerable. I think our chemical plants and our refining 
infrastructure are also incredibly vulnerable. So right now, I 
would say we are a very vulnerable community to both rainfall 
flooding and surge flooding unfortunately.
    Chairwoman Johnson. Thank you very much. Dr. Rifai, we know 
we've had a great deal of damage. I also serve on the 
Transportation Committee, and I've been asking for research for 
resilience now for several years. And before we can get all of 
it done, we are in great need of the outcome. What are some of 
the mechanisms for information-sharing among cities and 
emergency managers regarding successful strategies for 
resilience?
    Dr. Rifai. So there's a lot of data that we could use from 
them, and if we had access to this information, the idea is to 
put that type of knowledge in with the information from the 
weather and the predictions and in with the information from 
the sophisticated AI and algorithms and also from--excuse me--
the data that we collect on anticipated damages, weaknesses, 
vulnerabilities, and fragilities in the system. So it does take 
all kinds of information to put together a system whereby we 
can make decisions and make improvements in our systems.
    Chairwoman Johnson. Thank you. Dr. Uccellini, to your 
knowledge, how equipped are forecasters and emergency managers 
quick to respond to rapid hurricane intensity changes?
    Dr. Uccellini. Yes, we have a very strong partnership. In 
fact, we call it a core partner with the emergency management 
community at every level of government as we've developed--or--
our strategic or realizing our strategic goal of building a 
weather-ready Nation. We have to be in partnership with the 
folks who are on the ground and making decisions. And whether 
we are co-located with them, as we are here, whether we surge 
our resources to embed in the emergency management community 
during an event, or whether we're working through the social 
media outlets to--or direct communications, we keep them up-to-
date on the situational awareness and whether it's in the 
forecast mode or during the actual events. So these rapid 
changes that we're seeing are well-communicated with them.
    And, as I answered before with respect to the changing 
climate, we have to calibrate our forecasts accordingly for 
things like storm surge or coastal flooding conditions based on 
sea-level rise, for example. So all of this is worked into our 
ongoing practice with them and actually during the event.
    Chairwoman Johnson. Thank you very much. Let me just say 
that we just are celebrating the 50th anniversary of Apollo, 
Houston is very familiar with, and many people don't equate 
often that research with the outcomes of which we are working 
with today, all of the weather forecasting and all that. It's 
been such a tremendous 50 years of findings, but we still need 
additional information.
    It is clear that we have gained by having access to that 
information because we're saving a lot more lives with the 
projections and the predictions. We're trying now to make sure 
we can save some properties as well.
    I want to express to all of you just how important this is 
to our Committee's research and direction. All of us here that 
are on the Committee are very concerned about what we can do 
and do it in a fairly rapid manner to see if we can improve 
from where we are. And we are bipartisan, as you can tell, and 
I don't know that I could say that any Member on this Committee 
is doubting whether or not we are going to look out for as much 
as we can to try to prevent more property loss in all of this 
weather change.
    Let me thank Mrs. Fletcher, and I will yield.
    Chairwoman Fletcher. Thank you very much, Chairwoman 
Johnson. I will now recognize Ms. Garcia for 5 minutes.
    Ms. Garcia. Thank you, Madam Chair, and I, too, want to 
thank you for bringing this field hearing to Houston. And, 
Chairwoman, thank you for all the support that you gave 
Representative Fletcher to make sure that we could do this 
because, as you said, this is a very critical topic, and all of 
us must work together not only as Members of Congress but 
together with all the other local governments.
    And I do want to acknowledge that Council Member Stardig is 
here, and I know I've worked with her on some of these issue. 
And our former County Judge Eckels, who also is known for 
knowing these issues like the back of his hand, so thank you 
for doing that.
    And most of you on the panel I've run across before 
because, like many here at the table, I've been through Katrina 
and Rita and all of them. You know, I remember Tropical Storm 
Allison. I mean, that was not a surge event. It was just a hell 
of a lot of water. And that was probably the first time we 
experienced something like that to a great degree here in 
Houston. So we've been through a lot together.
    And my questions are really going to be to Ms. Rifai. You 
know, you say in your testimony on page 2 that it is important 
to note that we'd be exceeding $70 billion for a 25-foot surge. 
What was the surge in Ike?
    Dr. Rifai. I'm sorry?
    Ms. Garcia. Do you recall what the surge was during Ike?
    Dr. Rifai. So the scenario we analyzed resulted in a 25-
foot surge.
    Ms. Garcia. Well, I know what you analyzed, but do you 
recall what it was for Ike?
    Dr. Rifai. Oh, for Ike it was 14, and so----
    Ms. Garcia. Fourteen.
    Dr. Rifai [continuing]. With the--at the----
    Ms. Garcia. So another 11 and we could have suffered $70 
billion. How much did we suffer after Ike?
    Dr. Rifai. Well, it was a few billion dollars. It wasn't 
70. But the idea is Ike, as has been mentioned earlier, is 
really not the big storm per se. So if you were to take Ike and 
increase its wind or its strength by 30 percent, you would end 
up with 25-foot surge. And that basically would be very 
disastrous for Houston not just from infrastructure losses but 
from its economic viability essentially.
    Ms. Garcia. Right. And earlier, you said that it's 
important that we kind of weigh infrastructure and people----
    Dr. Rifai. Exactly
    Ms. Garcia [continuing]. And I always keep it real simple, 
especially when I was County Commissioner, to make sure people 
understood where we were. I always say that it's the three P's. 
It's protecting people, the plants--and I mean industry--I 
don't mean their pretty ivies--and of course the port. And 
port, I don't just mean Port of Houston but the entire, you 
know, 26 miles of the Houston Ship Channel. Would you agree 
with that, keeping it simple?
    Dr. Rifai. Exactly.
    Ms. Garcia. Right.
    Dr. Rifai. But----
    Ms. Garcia. And then I was really intrigued with your 
figure--I think it's 12 on page 17. And I apologize to the 
audience if you don't have the handouts. But you mentioned the 
number of tanks, but you mentioned that only one has actually 
had a spill and--concentrated, but the spill was--it--
significant concentrated disadvantaged populations.
    Dr. Rifai. So actually the figure that you are referring to 
shows at this one facility there was one tank that failed 
during Harvey----
    Ms. Garcia. Right.
    Dr. Rifai [continuing]. But in fact in figure 12 you will 
see that there were many other failures across the city.
    Ms. Garcia. Right.
    Dr. Rifai. And most of these failures are in these zones 
that have concentrated disadvantage. In our work, we define 
concentrated disadvantage, looking at five different measures 
of disadvantage, one being younger than 18, one being female 
head of household, one is the amount of money that you make in 
your household, and so on. So when you look at these five 
factors, that's the mapping of the community and what it looks 
like with regard to disadvantage and----
    Ms. Garcia. So is it too simple to say that most leaks have 
occurred and impacted the concentrated disadvantaged 
populations the most in our area?
    Dr. Rifai. OK.
    Ms. Garcia. OK means yes? Or would you say it another way?
    Dr. Rifai. Well, I mean, we see more impact in areas that 
have concentrated disadvantage. That's where the industries 
are, that's where most of the release is. Even when you look at 
the infrastructure like wastewater plants and hazardous waste 
sites, Superfund sites, they're all located in disadvantaged--
concentrated disadvantaged communities. And so when you have a 
release, especially when people don't have the means to leave, 
they're sheltering in place, they really have no way to get out 
of the situation they're in, and on top of that they have to 
deal with these biological and chemical hazards, that all--are 
all around them.
    Ms. Garcia. I ask as I still remember the words at the 
first briefing that--I was a State Senator at the time that the 
State did before Harvey hit, and they said places that have 
never flooded before will this time. And, unfortunately, a lot 
of these disadvantaged areas--and many of which are in my 
district--sort of always get hit. I mean, I always say that 
Harvey was like the guy who's lost and doesn't want to stop and 
ask for directions because it wandered--Harvey wandered 
everywhere.
    So I guess my concern and my final question to you would be 
would you say then that the greater impact is usually to the 
disadvantaged populations?
    Dr. Rifai. I'm sorry, the greater impact?
    Ms. Garcia. Impact, negative impact, financial impact, 
losing their homes.
    Dr. Rifai. Yes.
    Ms. Garcia. Because, as you see, most people here are 
probably homeowners. I don't know how many people here are from 
industry. But I just want to make sure that when we talk about 
these issues that we always talk about people first.
    Dr. Rifai. Absolutely.
    Ms. Garcia. Thank you.
    Dr. Rifai. I couldn't agree with you more.
    Ms. Garcia. Thank you.
    Chairwoman Fletcher. Thank you, Ms. Garcia.
    Thank you all for your very thoughtful questions. Thank you 
for your wonderful answers. We're going to begin our second 
round of follow-up questions where the remaining Committee 
Members will have up to 5 minutes to ask some follow-up 
questions. They may not take the whole 5 minutes, but we 
definitely want to follow up on a couple of things.
    And certainly we've talked a lot about Harvey and the 
impacts of Harvey. And I think there are lessons there that we 
can all take. Certainly, I think in response to some questions 
from Mr. Olson, Mr. Blackburn, I want to ask you a quick 
follow-up. I know Mr. Olson talked about particularly the 
flooding of Harvey and the Canyon Gate subdivision, which I 
think just the record will reflect is upstream of the Barker 
Reservoir. And of course that is a very important concern, the 
upstream flooding, as well as downstream.
    But one of the things you mentioned in response to that 
question, Mr. Blackburn, was that there are a lot of creative 
concepts that aren't being implemented, and I was wondering if 
you could give us some examples of some of those creative ideas 
that could be implemented here and elsewhere because, of 
course, the work on this Committee applies across the Gulf 
Coast and across the United States. But if you could just give 
us some examples of some of those creative ideas, I think that 
could be helpful.
    Mr. Blackburn. I mean, would that be--are you asking 
specifically to Addicks and Barker or more generally?
    Chairwoman Fletcher. No, more generally.
    Mr. Blackburn. OK. I think from a creativity standpoint, 
the--I've mentioned one, getting the private sector more 
involved from a financial side. I think looking hard at the 
methodologies and perhaps releasing some of the Federal 
agencies from some of the binding methodologies that they have 
that are kind of tying their hands in how they respond, the 
benefit-cost analysis process is something that I would ask you 
to take a look at. I think it was done at a time for good 
reasons, but it may not be appropriate for now.
    From a creative standpoint, I would also look at frankly, 
how we're--you know, the role of flood insurance and really 
buyout. I would tell you that if you want to get really 
creative, let's combine housing strategies with buyout 
strategies so that when we talk about buyouts, there are going 
to be homes available for people to move into, linking things 
that have not been linked before.
    And I concur with all of the focus on the equity issue. It 
has to be in the middle of that discussion and oftentimes has 
not been for various reasons I think related to methodologies.
    Chairwoman Fletcher. And would you include natural 
infrastructure as part of that creative approach?
    Mr. Blackburn. Absolutely. We've worked real hard with 
natural infrastructure and particularly trying to work with 
landowners to keep them on their lands so that those lands can 
flood and not generate a lot of damage. A lot of ranchers want 
to stay on their lands. We need to find ways to get money to 
them, and we're working on that with our Texas coastal 
exchange.
    Chairwoman Fletcher. Terrific. And I have one more question 
for the full panel. We've talked a little bit about some of the 
funding challenges, the Federal Government's historical role as 
a funder, but there's encouragement of getting more involved, 
especially in the research. But could you identify for us any 
of the research gaps that you have found in your work that 
could be addressed with Federal funding?
    And likewise, are there suggestions of things where funding 
isn't really the issue, but there's some collaboration or 
collective effort that you could share with us would be helpful 
that we should know about?
    Mr. Blackburn. Is that to me or to others?
    Chairwoman Fletcher. That's to everyone. Maybe if each of 
you want to give a quick answer to that, and then we'll move 
on.
    Dr. Uccellini. Well, you know, I can't talk about funding, 
so what I will say is whether it's the Federal Government, 
within the Federal Government, or among the government 
partners, there's got to be I think more attention paid to how 
we can leverage each other. And that also applies not only 
nationally but internationally, so we certainly on the science 
side are always working with the international community to try 
to advance our predictive capabilities, for example.
    I see one of the biggest gaps, again, as we are now--it's 
relatively new that we're actually going beyond the forecast 
and warning to try to affect decisionmaking across the whole. 
And what we're finding is--and what's now being reported in 
literature is trying--a better understanding of the changing 
risk preference of people as an event is coming on them. And 
this is this link between physical and social science. And if 
there's a gap anywhere, it's cementing that linkage between 
those two sciences----
    Chairwoman Fletcher. Thank you.
    Dr. Uccellini [continuing]. Science categories.
    Chairwoman Fletcher. Thank you. Dr. Rifai?
    Dr. Rifai. Sure. So, for me, I will focus on a couple of 
key points. One is the ability to basically have research-
informed decisionmaking. We have a lot of tough decisions, and 
they're all costly. And it's not an infinite pot of money, as 
has been mentioned several times. So for us to make those tough 
decisions, we really need to fund research into what would--
what can we buy most for the limited resources that we have.
    The second point that I would like to make is in our 
country in the U.S. our monitoring grid, our observation grid 
is really ancient and old. It doesn't give us all the 
information that we need, whether it be the rainfall gauges or 
water quality systems, any type of LIDAR (light detection and 
ranging) or satellite imagery or boots-on-the-ground-type data 
collection. I think it would behoove us to invest in upgrading 
that entire network to where we have data on the fly, real 
time, and people can make informed decisions.
    We'd like to be like NOAA. We'd like to be like the 
communities that have access to AI and machine learning and be 
able to take that data in real time and tell communities stay, 
leave, get out, you're at risk, this is what's going to happen, 
and provide this type of information at great detail.
    Chairwoman Fletcher. Thank you. Ms. Grover-Kopec?
    Ms. Grover-Kopec. I would echo the comments that Dr. 
Uccellini and Dr. Rifai said. The thing I would add actually is 
a non-funding option is supportive of public-private 
partnerships. There are plenty of private enterprises who, both 
because it's good for their business and because they care 
about their communities that they operate in, are open-minded 
to partner with our municipalities, our State and Federal local 
governments, and supporting that would be extremely helpful.
    Chairwoman Fletcher. Terrific. Thank you. Mr. Blackburn, 
any----
    Mr. Blackburn. No, I have nothing to add.
    Chairwoman Fletcher. OK. Thank you very much. Well, I will 
yield back my time, and I will recognize Mr. Babin for 5 
minutes.
    Mr. Babin. Thank you, Madam Chair. Just a couple questions. 
Dr. Uccellini, how has the Weather Act passed by this Committee 
2 years ago, helped you improve weather forecasting to date? 
And another follow-up after that.
    Dr. Uccellini. Well, with the separate categories--and I 
could go through each one. With the observations, we depend on 
global observations. Satellite data is extremely important to 
everything we do, as an example. The commercial aspect of that 
where--which is being tested now, is something that we need to 
look at because, clearly, the government can't assume all the 
risk anymore with billion-dollar systems, so this is something 
that we are looking forward to actually working and adopting 
observations from any source, as long as those observations 
meet our standards.
    On Titles 2 and 3 is the research improvement of the 
models, and there's a major effort ongoing to create our 
linkages to the university community. It's titled EPIC as--and 
the Administration has been fully behind that, and our 
management team, leadership team, and NOAA is certainly pushing 
to work that. They're focused on seasonal and sub-seasonal. 
There's been increased money redirected toward that area, which 
is important for us because we have to know that climate 
background, you know, in that time range as we improve our 
forecasts.
    And then, of course, on Title 4, we have building a 
weather-ready Nation, increasing IDSS (Impact-based Decision 
Support Services), and we've really embraced that's to move 
forward. And title 5 is the tsunami program, and we're 
certainly making progress there as well.
    So it just teed up all of these efforts and brought a focus 
on very high-priority items that we're certainly working to 
address now the advances which we presume we'll be getting from 
all these efforts.
    Mr. Babin. You did mention EPIC.
    Dr. Uccellini. Yes.
    Mr. Babin. That was my follow-up question, so you took care 
of that one. So we will----
    Dr. Uccellini. That's Earth Prediction Innovation Center.
    Mr. Babin. That's right.
    Dr. Uccellini. Right.
    Mr. Babin. Earth Prediction Innovation Center, better known 
as EPIC. And you kind of alluded to it, but how is the National 
Weather Service--how are you going to be able to utilize EPIC 
in forecasting hurricane development and tracking in the 
future? Sorry about that.
    Dr. Uccellini. We need--we absolutely need to have better 
ties to the entire research community, not just those 
researchers----
    Mr. Babin. Right.
    Dr. Uccellini [continuing]. Within NOAA but the entire 
research community, academic community especially. And this 
center is designed to be able to work with them in design, in 
the actual research, and then assuring that the research is 
done within a framework that will allow for an accelerated 
research to operations. And that's one of the key areas that 
we're really focused on is accelerating those changes into our 
operational system. So we're pretty excited about it. We've 
worked with the academic community in the past. What we're 
doing here is to broaden that scope and to ensure that there's 
a faster return on investment in partnership with that 
community.
    Mr. Babin. OK. Thank you very much. And then my second and 
last question was for Ms. Grover-Kopec. Thank you for being 
here today and sharing the private sector's perspective on 
developing more efficient disaster response strategies. In your 
written testimony, you explain how One Concern's work is made 
possible by research sponsored by the Federal Government. Can 
you explain how you utilize your company's work to assist 
communities like Houston in planning for the next weather 
disaster? We'd be very interested in it.
    Ms. Grover-Kopec. Sure, yes. Well, I'll be honest with you. 
So most of the implementation that we've done on this 
technology has been earthquake-focused, so most of the examples 
I can cite would be focused on the West Coast and seismic risk, 
so we have some good work going with the city of Seattle, as 
well as American Family Insurance as an example of the public-
private partnership that we're talking about.
    On the climate-related risk more related to kind of the 
hurricane risk that Houston sees here, we started to implement 
our flood product in the State of Arizona in the Nogales Wash, 
and we soon will be doing that with the State of Pennsylvania 
around Williamsport and the city of Pittsburgh. And so the 
intent there is it's the city managers, it's emergency 
responders, and those emergency management officials in those 
jurisdictions----
    Mr. Babin. Right.
    Ms. Grover-Kopec [continuing]. Using the live event 
products to respond.
    Mr. Babin. The amazing thing is--you know, you were talking 
about tsunamis a while ago. When you have a 25-foot storm surge 
like we had in Hurricane Ike, basically it's a tsunami with 
wind, and so we get a double whammy on that deal, so----
    Ms. Grover-Kopec. Yes.
    Mr. Babin [continuing]. I'll yield back, Madam Chair. Thank 
you very much.
    Chairwoman Fletcher. Thank you, Mr. Babin. I will now 
recognize Mr. Weber for 5 minutes.
    Mr. Weber. Thank you, Madam Chair. I'd just like to say for 
the public that's here, thank you for being here and for paying 
attention and caring enough to come out and spend your time.
    I make a note of optimism. You're seeing this very hearing 
for the very reason that you're here, to make sure that your 
government is on top of things and wanting to make things 
better and safer, protect people, families, you know, houses, 
and of course industry as much as possible because that means 
jobs.
    The science is getting better. There's much money needed 
for research. I think hopefully you're getting a sense of that 
from up here. And so take heart because I look for good things 
to happen.
    Dr. Uccellini, for you, we had this discussion when we 
toured the National Weather Service this morning, which of 
course is in my district in League City. And my district has 
the dubious distinction of having the two largest rainfall 
records in United States history. Tropical storm Claudette, in 
1979, dropped about 43 inches of rain overnight in a 24-year 
period in Alvin, Texas. And then of course, as you know, Harvey 
dropped about 61 inches in Jefferson County, drainage district 
number 7, a little longer timeframe but still it was the new 
rainfall record.
    And so you were very gracious with your time this morning, 
Dr. Uccellini. How many National Weather Service centers are in 
the United States?
    Dr. Uccellini. We have nine operational centers today. We 
have a 10th center, which is--will approach initial operation 
capability--that's the water center in Alabama--by September 
30. So we'll have 10, and they cover a spectrum from space 
weather to ocean predictions, so we have centers focused on 
what I call a domain space of the sun to the sea. And for those 
in the audience who don't think space weather is important, if 
you use GPS, it's important. So--as an--or if your plane is 
using it, it's important, too. So we have 10 centers.
    Mr. Weber. Well, thank you for that. And we are very, very 
fortunate and blessed that we have one local. And as you all--
--
    Dr. Uccellini. Oh, wait a minute, I'm sorry. We have 122 
local forecast offices, so you have that local forecast office.
    Mr. Weber. Right, but you know, in Texas, things are bigger 
and better, and we want more centers in Texas. I'm just saying. 
And so we are very, very fortunate to have that. Now, we had a 
discussion with Galveston County, Judge Mark Henry, and he was 
there to kick us off. And he mentioned that the Federal 
Government, the National Weather Center, did not just barge in 
to the emergency management center there, but they asked if 
they could come in and partner with Galveston County. And of 
course the emergency management center, the Commissioners said 
of course you can, you're welcome, please come. And then Judge 
Mark Henry said, you know, you came as a volunteer, but now 
you're hostage; you can't leave.
    And you all laid out a scenario that worked for Hurricane 
Harvey, which was so astounding because you had emergency 
management personnel there on the ground, you were dealing with 
Texas Emergency Management Coordinator, you were dealing with 
Harris County. Would you describe for the panel and for the 
people here exactly why that worked so well being in close 
proximity?
    Dr. Uccellini. So it's the development of the trust that--
between the forecasters who--we'll always have uncertainty in a 
forecast. We can ever produce a perfect forecast. So yet there 
were incredible decisions that have to be made 5, 6, 7 days in 
advance to even start the process. So they have to go through 
the practicing with us through this developing relationship our 
sense of certainty and uncertainty as we approach this event 
and gets to a key decision point in which they need to act.
    So--and you mentioned the rainfall records. The one 
difference between the two of them is we predicted the second 
one, right? And even that, making that prediction, I contend 
that if we didn't have that trust built in, I'm not sure people 
would have believed our forecast of over 50 inches of rain. So 
it's that trust factor through practice, practice, practice 
that's essential to making this work.
    Mr. Weber. Right. And I appreciate that. And for the 
panelists and the audience, there were people who stayed there 
how many days in a row?
    Dr. Uccellini. Geez, I get----
    Mr. Weber. Six, eight, 10 days----
    Dr. Uccellini. Yes, it was in the 5-, 6-, 7-day range.
    Mr. Weber. Right.
    Dr. Uccellini. And this facility was incredible in terms of 
not only colocations but they had showers----
    Mr. Weber. Right.
    Dr. Uccellini [continuing]. So, as was pointed out today, 
that's really essential for keeping that trusted relationship 
working through days 5 and 6.
    Mr. Weber. One of the comments made was that the showers 
weren't for him, it was for his coworkers, so--anyway, thank 
you for that and your service. And I just want the community to 
take heart because good strides and good steps are being made.
    And, Madam Chairwoman, I appreciate you, and I'm going to 
yield back.
    Chairwoman Fletcher. Thank you, Mr. Weber. I'll now 
recognize Mr. Olson for 5 minutes.
    Mr. Olson. I thank the Chair again. And my second round of 
questions starts out with you, Ms. Grover-Kopec, about the 
National Flood Insurance Program. As you know, there's a 
philosopher who said the definition of insanity is doing the 
same thing over and over and over expecting different results. 
I submit the FIP is a great example of that working in our 
Federal Government. Right now, it's in debt about $21 billion 
last year. It increased all the floods we had in the Midwest, 
what's going to happen to hurricane season. We don't know 
what's going to happen. It's going bankrupt.
    My former colleague, the Chairman of Financial Services Jeb 
Hensarling, tried to pass a bill. He knew the private sector 
could adequately address the costs and risks of most floods 
probably 90 percent or more with the public sector covering 
the--sort of the big issues. He thought that'd be more viable, 
lower cost, better service. And so what do you think about the 
private sector taking up a big chunk of flood insurance? Is 
that viable, will save money, more responsive, or should we 
just keep marching down with the current NFIP?
    Ms. Grover-Kopec. My own personal opinion is I think it is 
viable, though will probably not happen overnight. I do think 
some of the changes that FEMA (Federal Emergency Management 
Agency) made over the last year around the governance of NFIP 
in those policies helps considerably. For example, the ability 
of homeowners to use a private policy if they have a federally 
backed mortgage instead of an NFIP policy, assuming those are 
comparable, that's an example of a really concrete move that 
they've made in the right direction. And once those policies--
they're seeing some stability in opening up that arena to the 
private sector, as well as openness on the regulatory front at 
the State level. I think you'll see insurers step in as--it's a 
growth opportunity for them, and they would like to cover that 
risk, assuming they understand it well.
    Mr. Olson. So say we create that environment, this will 
actually work, the private sector take a big chunk of what NFIP 
is doing right now. Is that----
    Ms. Grover-Kopec. If they understand the risk----
    Mr. Olson. Yes, all the--yes.
    Ms. Grover-Kopec [continuing]. And the regulatory 
environment allows it, yes.
    Mr. Olson. Work to go.
    But the second round of questions is for you again, ma'am, 
and maybe for you, Dr. Rifai. It's about AI. And I'm the co-
Chairman of the House AI Caucus, along with Chair McNerney from 
California. And we all know what AI is going to do for the 
future, I mean, especially during natural disasters. It will 
give us real-time information on unpassable roads, powerlines 
that are down, trees are down, status of hospitals. For 
example, Memorial Hermann Sugar Land shut down because of the 
floods of the Brazos River during Hurricane Harvey.
    And also AI never forgets a situation. Who here remembers 
Tropical Storm Claudette? Not many hands. That storm set a 
record. That tropical storm dropped 42 inches of rain on Alvin, 
Texas, in less than 24 hours. That record stood until last 
year. Something happened in Hawaii.
    So my question is, how can AI--both of you--solve some of 
these problems, get this thing turned on and manage it, all 
these issues with biases, there's things out there, but what do 
you think about AI in the future? How can we help at the 
Federal Government make this thing a reality?
    Dr. Rifai. So there's so much data out there and so much 
knowledge, and it's really hard for the human brain to get 
their arms around it, so we need machines to help us sort 
through the information and detect patterns. And then by 
detecting these patterns, we can make better decisions. So if 
you ask me, we need to make maybe 10,000 computer simulations. 
Even with the fastest computers, there's no way I and my 
research group or any other entity by themselves can sort 
through all those results and give you the probability that a 
given scenario is going to happen. AI, machine learning helps 
with all of that. It's done really quickly. And while I'm not 
in quantum computing, I can buy into AI and machine learning; 
quantum computing is going to take us a little bit longer to 
get that done.
    Ms. Grover-Kopec. I just want to comment. That answer is 
spot on. And the thing I would add is that modeling approach 
allows us to not be so biased by history, right? If you take 
what Dr. Rifai just said and the ability to look at potential 
future scenarios in a dynamic and a quick manner, it allows to 
remove the bias of history. History is important, but we need 
to be able to account for the future view as well.
    Dr. Uccellini. And if I may, within the forecast process 
itself, there's a tremendous amount of information in the 
observations, in the models that we can extract and use not 
only for supporting decisionmaking--and I contend or believe 
that AI or cognitive computing is going to be really important 
in assisting in decisionmaking, but it also helps us extract 
the information that could improve our forecast and help 
pinpoint warnings as well. So we are very actively engaged in 
this and have been. There's been--there was artificial 
intelligence work that started in the 1990s, so this is 
something that we're actually looking toward to help our jobs 
as well.
    Mr. Olson. Mr. Blackburn, I'll give you your Rice-style 
farewell. I yield back.
    Chairwoman Fletcher. Thank you, Mr. Olson.
    And before we bring our hearing to a close, I really want 
to echo the comments of all of my colleagues. I'm so grateful 
to have with us in attendance today some of our elected 
officials and leaders on this issue, of course Houston City 
Council Member Stardig, former Harris County Judge Eckels. And 
Russ Poppe from Harris County Flood Control was here but I 
don't see him anymore--and our community for coming out to this 
hearing to listen to these important issues. It really 
underscores the importance of the work that our witnesses are 
doing and the work that is before this Committee and the work 
that we need to do from where we sit in Washington.
    So I really want to thank all of our witnesses for their 
time. I want to thank the community for coming out.
    The record for this hearing will remain open for 2 weeks 
for additional statements from the Members or for any 
additional questions the Committee may want to ask of the 
witnesses.
    And with that, the witnesses are excused, and the hearing 
is now adjourned.
    [Whereupon, at 5:08 p.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              


                   Additional Material for the Record




           Letter submitted by Representative Lizzie Fletcher
           
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]           
           

                                 <all>
</pre></body></html>
